<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014 

                              ----------                              


                         WEDNESDAY, MAY 8, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Mikulski, Murray, Johnson, Pryor, 
Cochran, Shelby, Collins, Graham, Coats, and Blunt.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY


             opening statement of senator richard j. durbin


    Senator Durbin. The subcommittee meets this morning to 
receive testimony on the fiscal year 2014 budget request for 
the U.S. Air Force. I'm pleased to welcome the Secretary of the 
Air Force, the Honorable Michael Donley, and the Chief of Staff 
of the Air Force, General Mark Welsh.
    Gentlemen, thank you for being here.
    Secretary Donley, I understand you recently announced 
you'll be retiring this summer after 5 years as Secretary and 
30 years of service in the national security community. You 
have a remarkable record of service in the Air Force and to the 
country, and we will be indebted to you for that service, so 
thank you so much.
    For fiscal year 2014, the President's budget requests $144 
billion in base funding, of which $114 billion falls under the 
Department of Air Force oversight. The request does not include 
amounts needed in support of overseas contingency operations 
(OCO); however, we expect that request to be delivered to 
Congress soon. Additionally, this request does not reflect the 
implementation of the sequester in a second year.
    Unless agreement is reached on a deficit reduction plan 
that eliminates the projected sequestration, the Department of 
Defense (DOD) will have an additional $50 billion across-the-
board reduction in fiscal year 2014. Yet the Air Force will be 
under tremendous pressure to support current operations in the 
last year of active military commitment in Afghanistan. This 
includes maintaining a strong and stable presence in the Asia-
Pacific regioning, and ensuring a safe and effective nuclear 
deterrence, while at the same time supporting other critical 
missions such as intelligence, surveillance, reconnaissance, as 
well as cyber-operations.
    I will tell you that I have a special interest in the Air 
Force, having grown up in the shadow of Scott Air Force Base in 
Belleville, Illinois. It is a critically important part of our 
national defense and of the State economy of the State of 
Illinois.
    It's a major air mobility hub, hosting Guard and Active 
Duty units, as well as the U.S. Transportation Command. Members 
of its tanker airlift control center have been called in 
emergency medical evacuations for servicemembers injured in 
Afghanistan. The 126th Air Refueling Wing deployed to 
contribute to the no-fly zone in Libya.
    I'm very proud these men and women are performing such 
important tasks and call Illinois home.
    Our job is to ensure that all the men and women in uniform 
in the Air Force and beyond are the finest, most skilled 
fighting forces in the world. It would be a serious mistake to 
allow budget pressures to squander or in any way endanger them.
    As such, this committee needs guidance on a number of 
pressing personnel and investment questions. How does the Air 
Force plan to recruit and retain the best talent to deal with 
the challenges of the 21st century? What more can be done to 
address the vexing issues of suicide and post-traumatic stress 
disorder (PTSD)? How do we keep faith with servicemembers and 
their families in this budget requirement? Is it time to 
rethink the mix of our future air corps aircraft inventory? 
What must we do differently to combat sexual assault?
    President Obama is a personal friend of mine. We served 
together in the Senate, and I worked with him even before he 
was elected to the U.S. Senate. I detected in his comments in 
the last day or two a sense of anger and frustration over the 
most recent incident involving an officer in the Air Force.
    This past Monday, the Air Force officer in charge of the 
Sexual Assault Prevention and Response Office (SAPRO) was 
arrested for alleged sexual battery of a woman in a parking 
lot. This committee needs to know what more can be done to 
address this culture of sexual abuse that appears to be, 
unfortunately, not controlled within the Air Force. I look 
forward to working with your leadership throughout the year to 
address this pressing issue.
    This morning came another revelation, and one which we will 
address at this hearing. The Air Force stripped an 
unprecedented 17 officers of their authority to control and, if 
necessary, launch nuclear missiles after a string of 
unpublicized failings, including a remarkably dim review of 
that unit's launch skills.
    The group's deputy commander--and I'm reading from the 
press story from Associated Press--the group's deputy commander 
said it is suffering ``rot'' within its ranks.
    Lieutenant Colonel Jay Folds, the commander, wrote in an 
internal email obtained by the Associated Press and confirmed 
by the Air Force, we are in fact in a crisis right now.
    This is a result of a review, an inspection, that was made 
in March at Minot Air Force Base. We are talking about one of 
the most important assignments in the military, and maybe the 
most important assignment in the U.S. Air Force, and that is 
being ready, standing on guard 24 hours a day, watching over 
the Air Force's most powerful nuclear missiles, the 
intercontinental ballistic missiles (ICBMs) that can strike 
targets across the world. Inside each underground launch 
control capsule, two officers stand on alert at all times, 24/
7.
    Seventeen of those officers in Minot have been asked to 
stand down. That is something that deserves not only your 
comment, but your commitment to make certain that this awesome 
responsibility that has been given to this branch of the 
service is not in any way being endangered by what we find 
reported this morning.
    So there are important issues for us to discuss beyond the 
obvious budget issues, which we need to address in the course 
of this hearing.
    I will tell you, when it comes time for my questioning, I 
will be dealing directly with the sexual assault issue, as well 
as this latest revelation in regards to Minot Air Force Base.
    Senator Durbin. Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I'm pleased to join you and 
other members of our committee in reviewing the Air Force's 
budget request for the next fiscal year.
    We're going to look carefully at the request, and we 
appreciate so much the attendance of so many of our committee 
members at this important hearing.
    We are very proud to host, in our State of Mississippi, 
some important facilities that the Air Force has the 
responsibility of running and maintaining, everything from 
pilot training and enlisted personnel training at Keesler Air 
Force Base, to officer training at other facilities throughout 
our State. We're very proud of that legacy, and we look forward 
to hearing your testimony about our facilities around the 
country and their status, and our commitment to protecting the 
security interests of the United States.
    Senator Durbin. Thank you, Senator Cochran.
    I'm honored to be joined by the chair of the full 
committee, Senator Mikulski. I'd like to recognize her at this 
time.


              statement of chairwoman barbara a. mikulski


    Chairwoman Mikulski. Thank you very much, Mr. Chairman, 
Senator Cochran.
    And I note that my vice chairman, Senator Shelby, is here. 
And I think it shows our commitment to the Defense 
Appropriations Subcommittee and also to the critical mission 
served by the Air Force.
    I wanted to come and participate as a member of this 
subcommittee, but also to say that we look forward to, in a 
short time, giving you an allocation, hopefully. And it would 
be our intent to be in keeping with the budget authority and 
the budget bill passed by the Senate, to mark up our 
appropriations to a level of $1.058 trillion, and enable also 
to be able to provide two things, an adequate 302(b) for you to 
meet the critical mission needs, and also the flexibility to 
deal as we work through these complicated issues of sequester 
and making sure we maintain readiness.
    But I also wanted to come to this hearing because, you know 
why. I'm just fed up with this sexual assault stuff. I am 
volcanic about this sexual assault stuff. I've been a Senator 
for 25 years. I've dealt with this from Tailhook; I've dealt 
with this from the Naval/Air Force Academy scandal; I've dealt 
with this as the Board of Visitors at the Naval Academy. Now 
we're up to 26,000 sexual assaults. I'm tired of hearing, 
``Boys will be boys.'' ``Oh, it's an isolated incident.'' Then 
there have been coverups by Generals. Then we hear the person 
in charge has also got other problems.
    And Secretary Donley, I know you're coming to the end of a 
very distinguished career. And I'm sorry that this hearing will 
have the tensions that it will have, but you got to know we're 
at the limit here. And we need to know how we're going to 
really change this culture. Because this is not an incident; 
this is not numbers and statistics; this is not a new 
phenomenon. From Tailhook, to beginning at the Service Academy, 
all the way through, this seems to be a systemic, persistent 
problem.
    So I look forward to the answering of the questions, call 
for change from the President, call for change from the 
Congress of the United States. I look forward to working with 
you, but I've been working with you for 25 years, and it didn't 
seem to do one damn bit of good. And I'm pretty frustrated. I 
want change. I want action. We'll put the money in the budget, 
if that's the problem, but I don't think money is the problem.
    Senator Durbin. Thank you, Madam Chair.
    Before opening statements, I'll recognize Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Donley, General Welsh, welcome to the committee. 
I look forward to the hearing. It's a very important hearing, 
Mr. Chairman.
    Senator Durbin. Secretary Donley, please proceed.


              summary statement of hon. michael b. donley


    Mr. Donley. Thank you, Mr. Chairman.
    Chairwoman Mikulski, Senator Cochran, Senator Shelby, 
members of the committee, it is a pleasure to be here today 
representing our Active Duty, Guard, Reserve and civilian 
airmen. And I'm honored to be here with my teammate, the 20th 
Chief of Staff of the United States Air Force and a great Air 
Force leader, General Mark Welsh.
    For fiscal year 2014, the United States Air Force requests 
$114 billion in our baseline budget. As with all budgets, our 
fiscal year 2014 request represents a snapshot in time, our 
best analysis of Air Force needs based on available 
information. And especially given the budget turmoil over the 
past year, this morning's discussion on fiscal year 2014 needs 
to begin with where we stand this year, in fiscal year 2013.


                          air force priorities


    First I'd like to highlight that, throughout the current 
budget turmoil, our Air Force priorities remain aligned with 
the January 2012 Defense Strategic Guidance. This includes 
supporting combatant commanders in the current fight in 
Afghanistan; maintaining a strong and stable presence in the 
Pacific and Korea; supporting nuclear and regional deterrents, 
counterterror, and other operations.
    There is demand for airpower, and your airmen are busy 
around the world. Today, more than 35,000 airmen are deployed. 
More than 57,000 airmen are stationed overseas. More than 
132,000, in total, are providing support to combatant 
commanders on a daily basis. And as the fiscal constraints get 
tighter, we must tighten our alignment with the new strategy 
and strengthen our commitment to joint interdependent solutions 
to the Nation's military challenges.


                     implications of sequestration


    You've heard many times that the implications of the 
sequestration reductions are dire, and they are. That's why the 
President has put forward a balanced deficit reduction proposal 
that would allow Congress to repeal sequestration in fiscal 
year 2013 and beyond.
    While the Department is working full out to adapt to new 
fiscal realities, it was not possible, given the necessary 
timelines, to turn around a new fiscal year 2014 budget based 
upon new assumptions derived from the March 1 sequestration and 
from the final Defense Appropriations Act, also approved in 
March, nearly 6 months into the fiscal year.
    We need to stipulate up front that the fiscal year 2014 
budget does not provide funding to recover from the damage done 
by even a partial year of fiscal year 2013 sequestration, much 
less the full impacts that would hit the Air Force if the 
President's proposal to replace sequestration for fiscal year 
2013 and beyond is not enacted.


                         state of the air force


    This morning, I'll summarize the state of the Air Force in 
three broad areas: Force structure, that is the size and 
composition of the force; readiness, the training and 
preparedness of our airmen and their equipment; and 
modernization, the replacement of aging aircraft and 
infrastructure and our investment in future capabilities.
    First, force structure. Last year, in our efforts to meet 
the requirements of the first half of the Budget Control Act, 
which included reductions of $487 billion over 10 years, the 
Air Force's fiscal year 2013 budget proposed a number of force 
structure changes, including aircraft transfers, retirements, 
and changes in unit missions that were the subject of much 
controversy in our Reserve components, with the State adjutants 
general and congressional delegations.
    Thanks to the work of this committee and others, we were 
able to fashion a compromise, which was approved in the 
National Defense Authorization Act. This year, I can report 
that the fiscal year 2014 budget proposes no major changes in 
force structure.
    As compared to the levels enacted in the fiscal year 2013 
National Defense Authorization Act (NDAA), the fiscal year 2014 
proposal would reduce active-duty end strength by 1,860 
personnel, reduce the Air Force Reserve end-strength by 480, 
and reduce Air National Guard end-strength by 300.
    We retain C-130 and Global Hawk Block 30 force structure as 
directed through fiscal year 2014.
    Our nuclear forces remain at current levels, pending future 
decisions on implementation of the New START (Strategic Arms 
Reduction Treaty) agreement.
    And we're on track to achieve 65 medium-altitude combat air 
patrols with our remotely piloted aircraft (RPA) fleet.
    We'll focus in fiscal year 2014 on implementing the 
retirements, transfers, and mission changes outlined in the 
fiscal year 2013 NDAA. And we've provided two reports to 
Congress outlining implementation plans for each of the 
affected units and locations.
    Looking ahead, it's never been more important for the Air 
Force to maximize the strength of our total force. Our Active, 
Reserve, and Guard components are increasingly integrated, 
training, deploying, and conducting the full range of missions 
together as a total force. We must continue to ensure that our 
Active-Reserve component mix correctly balances the strengths 
of each component and meets the strategic requirements of our 
Nation and our fiscal demands.
    We've made progress over the last year in our 
intergovernmental relationships, working with DOD and the 
Council of Governors to formalize the consultative process 
between DOD and the States to provide more transparency in 
planning and programming.
    Within the Air Force, working with our Guard and Reserve 
leaders, General Welsh and I have established a total-force 
taskforce to provide strategic options on the appropriate mix 
of total-force capabilities and to inform our strategic 
planning for fiscal year 2015 and beyond. This taskforce will 
also serve as a resource to the congressionally directed 
national commission on the structure of the Air Force, which 
held its first meeting last week on April 30.
    In summary, our proposed force structure is relatively 
stable for now. But beyond fiscal year 2014, it is dependent on 
decisions yet to be made and especially on achieving a balanced 
approach to deficit reduction to avoid further sequestration.


                          air force readiness


    Turning to readiness, while the Air Force has met the 
demands of a high-operational tempo in support of today's 
fight, this has taken a toll on our weapons systems and people. 
Unit readiness declined significantly from 2003 onward. And 
despite significant investments in the past few years, only 
half our combat Air Forces have met acceptable readiness 
standards.
    With the rebalance to the Asia-Pacific and our continued 
presence in the Middle East and Africa, we expect the demand 
for Air Force capabilities will remain constant, perhaps even 
rise over the next decade. We must improve readiness to prevent 
a hollow force.
    With respect to fiscal year 2013, the Joint Chiefs of Staff 
and Air Force leaders have already recounted the readiness 
impacts we anticipated this year as a result of sequestration.
    Passage of the final fiscal year 2013 continuing 
resolution, which, as you know, included defense 
appropriations; was helpful to DOD overall, but did not improve 
the active Air Force's operation and maintenance (O&M) budget; 
left shortages in the overseas contingency operations account; 
and did not mitigate the impacts of sequestration, which 
required approximately $10 billion in reductions to be taken in 
the last 7 months of fiscal year 2013.
    Anticipating this challenge in January, we took steps to 
cut back normal operations, including a civilian hiring freeze 
for permanent, temporary, and term vacancies; canceling 
nonmission critical official travel and conferences; reducing 
major command and combatant command O&M budgets by 
approximately 10 percent; and deferring nonemergency facility 
sustainment, restoration, and modernization projects.
    However, these steps alone are not sufficient to absorb the 
full impacts of sequestration without affecting readiness. 
Collectively, these sequestration reductions and readiness 
impacts are now being felt across the Air Force. Currently, 
nine combat-coded fighter units and three combat-coded bomber 
units are stood down and have ceased flying operations. Seven 
combat-coded units are flying at basic-mission capable levels 
and will only return to combat-mission ready status if funding 
becomes available.
    Flying hour reductions will halt training for the rest of 
the year in many units and will take up to 6 months to restore 
pilot proficiency. Other impacts include reductions in weapons 
system sustainment that will delay necessary maintenance, 
increase costs, and take 2 to 3 years to recover from repair 
backlogs, and the potential furlough of our valued civilian 
workforce, significantly reducing civilian pay, potentially 
devastating morale, and slowing productivity.
    Our main objective in the fiscal year 2014 budget mirrors 
our objective for 3 years running, to slow and reverse the 
erosion of Air Force readiness. To that end, the fiscal year 
2014 budget request is aimed at setting the Air Force back on 
the course toward full-spectrum readiness.
    The fiscal year 2014 request prioritizes funds for 1.2 
million flying hours, an increase of 40,000 hours over fiscal 
year 2013, to ensure pilot proficiency and continue new pilot 
production. It funds training ranges to enhance flying training 
effectiveness and to restore deteriorating infrastructure.
    It also adds $1.5 billion across the future years defense 
plan, the FYDP, to weapons systems sustainment to keep our 
aircraft and space systems ready.
    Unfortunately, fiscal year 2013 sequestration now 
jeopardizes the gains we had hoped to achieve next year. Even 
assuming this budget is approved as proposed, and even if 
Congress acted sometime this summer to repeal and replace 
sequestration for fiscal year 2013, we would almost certainly 
begin fiscal year 2014 carrying forward a significant degraded 
readiness posture from this year.


 fiscal year 2013 reprogramming request to cover overseas contingency 
                         operations shortfalls


    The Air Force is working with the Office of the Secretary 
of Defense (OSD) on a fiscal year 2013 reprogramming request to 
cover OCO shortfalls and to address some of the worst effects 
of sequestration. However, the budgetary transfer authority 
available to DOD is not sufficient to address all our known 
shortfalls.
    Even if such transfer authority were available, we do not 
have sufficient internal resources to pay for these shortfalls 
without digging far too deeply into modernization programs. And 
there may not be sufficient time left in fiscal year 2013 to 
repair the damage now immediately ahead.
    To sum up the readiness situation, we've been consuming Air 
Force readiness for several years, and we'll continue to focus 
the resources available to meet combatant commander 
requirements. But with the steep and late fiscal year 2013 
budget reductions brought on by sequestration, the readiness 
hole that we've been trying to climb out of just got deeper.
    The full readiness and budgetary implications of this 
situation could not be accounted for in the fiscal year 2014 
Air Force budget request and are still under review. And we'll 
work with our DOD leadership and Congress to fashion a 
practical way forward.


                        modernization challenges


    Finally, modernization. As I've previously testified, the 
modernization challenge facing our Air Force is pervasive and 
will, if left unaddressed, seriously undermine our ability to 
accomplish the missions the Nation has asked us to undertake.
    The average age of our fighter force is now 23 years; 
rescue helicopters, 22 years; training aircraft, 25 years; 
bombers, 36 years; and tankers, nearly 50 years.
    Satellites for missile warning, navigation, and secure 
communications, and other needs are also aging, and 
replacements must be built and launched on a schedule 
consistent with the life expectancy of current constellations.
    Our most significant Air Force priorities remain on track 
in fiscal year 2014: The fifth generation F-35 Joint Strike 
Fighter; the KC-46 tanker; the long-range strike family and 
systems, including the bomber. The continued modernization of 
existing fleets, such as the B-2, the F-22, the F-15, F-16, and 
C-17, to keep them operationally effective and to extend their 
service lives is also key.
    We request funding for preferred munitions as well as 
critical space satellite assets, such as the global positioning 
system, GPS; advanced extremely high frequency and space-based 
infrared systems, the AEHF and SBIRS programs. And we intend to 
maintain science and technology funding in order to stay on the 
cutting edge of technological innovation and sustain our 
airpower advantage.
    While we often face challenges with major acquisition 
programs, we have recently achieved some notable success using 
block buys and more efficient procurement strategies to drive 
down the cost of our three largest space programs--evolved 
expendable launch vehicle (EELV), AEHF, and SBIRS--by over $2.5 
billion. And the fiscal year 2014 request includes the first 
year of a multiyear procurement for the C-130J, which is 
expected to save over $500 million over the next 5 years.
    We'll need more successes like these in the future because 
there is still significant pressure on our modernization 
programs.
    Last year, in programming the Air Force share of the $487 
billion in DOD reductions over 10 years, the cancellation or 
delay of modernization programs accounted for 65 percent of 
total Air Force reductions across the FYDP. This year, each 
program was reduced by more than 7 percent in sequestration.
    In the immediate years ahead, major programs like the F-35, 
the KC-46, and the bomber are scheduled to grow as the overall 
DOD budget declines. And some longstanding needs, such as a new 
trainer and a replacement for the E-8 JSTARS, remain unfunded.
    Looking ahead, if there continues to be resistance to force 
structure changes, base closures, and constraining growth in 
compensation, and given our current focus on improving 
readiness, it's very likely that out-year reductions in the 
Budget Control Act will require further disproportionate cuts 
to our modernization programs.
    As advanced technologies continue to proliferate around the 
globe, these cutbacks in modernization would put at risk the 
Air Force capabilities this Nation will need in the next 
decade.
    The decisions ahead of us are extraordinarily difficult, 
but Congress has the power to help the Air Force and the 
Department of Defense maneuver through these unparalleled 
budget challenges.
    In recent years, Congress has placed limits on the Air 
Force's efforts to take tough but urgently needed actions to 
balance our readiness, modernization, and force structure, and 
rejected some of DOD's proposals to help slow the growth in 
military compensation.
    As our DOD leaders have testified, these congressional 
actions, if sustained, will add billions to our costs over the 
next 5 years. We hope that, in view of the serious economic 
problems facing our Nation, Congress will allow us to implement 
these and other important changes.


                      base realignment and closure


    And it is now all the more critical that we get your 
support on reductions in base infrastructure. The Air Force 
executed Base Realignment and Closure (BRAC) 2005 on time and 
under budget, and those adjustments are today generating 
savings estimated at $1 billion per year. We're looking at 
European basing requirements with our DOD partners and are 
ready to begin next steps in the continental United States 
(CONUS).
    We estimate more than 20 percent of our basing 
infrastructure is excess to need. BRAC authority is a tool that 
we urgently need to allow DOD to divest excess infrastructure 
and refocus resources to meet other critical needs, including 
readiness, modernization, and taking care of our people.
    In the area of military compensation, we are committed, as 
you are, to taking care of our airmen. But the impact of 
increasing personnel costs continues to be a serious concern 
and can no longer be ignored.
    Therefore, we support DOD's efforts to slow the growth of 
personnel costs. We support the modest 1 percent pay raise and 
the TRICARE fee and pharmacy copay changes included in the 
fiscal year 2014 budget proposal.
    While these are some of the broad outlines of our fiscal 
year 2014 budget request, there is clearly more work to do as 
we assess the rolling implications of sequestration in fiscal 
year 2013 and beyond.
    We will need your help to make necessary adjustments in our 
force structure to keep us ready and to avoid a hollow force 
and to equip this Air Force with the modern capabilities it 
needs for the future.
    But perhaps one of the most helpful things Congress can do 
is to return to regular order and approve the annual defense 
authorization and appropriations measures in a timely way.
    Throughout history, our Nation has effectively dealt with 
strategic challenges and fiscal constraints. But our recent 
track record of repeated delay and uncertainty, continuing 
resolutions that disrupt programs and budget planning, and 
midyear cuts that impair readiness and threaten civilian 
furloughs, must not become the new norm.
    We sincerely appreciate the ongoing commitment of this 
committee and its professional staff to return to regular 
order.
    Today's world is a dangerous place, and it's 
counterproductive to generate problems of our own making when 
so many other serious threats beyond our control demand 
attention. Together, we must do better for our men and women in 
uniform and their families, our civilian workforce, and our 
national security.
    Mr. Chairman, the American people have the world's best 
airmen and the world's finest Air Force. Your Air Force 
leadership team remains committed to getting the most 
capability possible from whatever level of resources you 
provide. We remain grateful for the support of this committee 
and its unfailing support for the Air Force and to the men and 
women of our Armed Forces.
    We stand ready to assist in any we can, and we look forward 
to discussing our proposed budget this morning.
    [The statement follows:]
           Prepared Statement of Hon. Michael B. Donley and 
                       General Mark A. Welsh, III
                              introduction
    Today's Airmen play a pivotal role in the constant pursuit of 
better ways to defend the Nation. Since the airplane was employed over 
the battlefields of World War I, Airmen have stood for and pioneered 
new and innovative ways to shape the fight and reinvent the battle 
itself. While pre-Kitty Hawk warriors relied on breaking through 
fortified lines on the ground, Airmen have always sought to go over, 
not through, those fortifications to achieve victory. This spirit of 
innovation, seeing problems from an alternative, multi-dimensional 
perspective, is in our Service history, in our culture, and in every 
Airmen--Active, Guard, Reserve and Civilian--regardless of his or her 
specialty or role. We call this perspective ``airmindedness.'' Airmen 
characteristically view security challenges differently--globally, 
without boundaries.
    As a direct result of our status as the world's preeminent 
aerospace nation, airpower--the ability to project military power or 
influence through the control and exploitation of air, space, and 
cyberspace to achieve strategic, operational, or tactical objectives--
allows America to control the ultimate high ground that is essential to 
winning our Nation's wars. The air arms of the Army, Navy, and Marine 
Corps are supremely capable at what they do--facilitating their parent 
Service's respective mastery of operations on the ground, at sea, and 
in a littoral environment. However, America has only one Air Force 
specifically designed and precisely employed to exploit the singular 
global advantages of military operations in air, space, and cyberspace. 
Airmen provide Global Vigilance, Global Reach, and Global Power for 
America through the enduring Air Force core missions of air and space 
superiority, intelligence, surveillance, and reconnaissance (ISR), 
rapid global mobility, global strike, and command and control. By 
integrating capabilities across these core missions, we bring a unique 
set of options to deter war, deliver rapid, life-saving responses to 
threatened areas anywhere on the planet, and strike hard and precisely 
wherever and whenever the national interest demands.
    Recruiting and developing high-quality, innovative Airmen who 
leverage technology to rethink military operations to achieve strategic 
objectives will remain a fundamental tenet of the United States Air 
Force. Only through the efforts of Airmen who have led the way in 
integrating military capabilities across air, space, and cyberspace--
even as their numbers have become significantly smaller--has our Nation 
maintained its airpower advantage. In an uncertain world, the Nation 
will depend even more on ready Airmen to deliver Global Reach, Global 
Vigilance, and Global Power.
                         strategic environment
    In January 2012, the Secretary of Defense issued new defense 
strategic guidance (DSG)--``Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense''--which serves as a foundational 
document in establishing national security interests, the threats to 
these interests, and the fiscal realities that guide our military 
posture. The DSG directed a rebalance of forces, with a renewed focus 
on the Asia-Pacific region, as well as continued emphasis on the Middle 
East. Using the DSG as a point of departure, the Secretary of Defense 
recently directed a strategic choices and management review in light of 
budget realities--such as sequestration-- and strategic uncertainty. 
This review will continue to help the Air Force to identify the major 
strategic choices that we must make to properly and realistically plan 
for the future.
    Although the future is uncertain, we know that the capability to 
sustain national priorities hinges upon a strong and capable Air Force. 
Over the last 12 years, the wars in Iraq and Afghanistan required Air 
Force capabilities to help force rogue regimes from power and then to 
provide critical support to land forces engaged in counterinsurgency 
and counterterrorism operations, and the Air Force currently plans to 
maintain these capabilities. In addition, the expected military 
challenges of the Asia-Pacific region, the Middle East, and Africa 
suggest an increasing reliance on airpower, not only by America and her 
allies, but also by her adversaries. The defining characteristics of 
American airpower--range, speed, flexibility, precision, persistence, 
and lethality--have played a crucial role in cultivating stability in 
these regions, a trend that will only increase in the future. The sheer 
geographic size and extended lines of communication of the Asia-Pacific 
region, along with the developing military expansion of potential 
regional adversaries, demand an air force that is postured to ensure 
stability and preserve U.S. interests. The Air Force is committed, 
along with our joint partners and allies and through cooperative 
military relationships, to ensuring global and regional stability and 
mutual freedom of access to the global commons to secure our common 
interests around the world.
    The Air Force's technological advantage is threatened by the 
worldwide proliferation of advanced technologies, including integrated 
air defenses, long-range ballistic and cruise missiles with precision-
capable warheads, and advanced air combat capabilities. Advances in 
adversarial capabilities in space control and cyber warfare may also 
limit U.S. freedom of action. Some of these technologies are attained 
with relatively minimal cost, greatly reducing the barriers to entry 
that have historically limited the reach and power of non-state actors, 
organized militias, and radical extremists. We live in an age of 
surprise, where individual acts can be powerful and the effects can be 
global. Today's strategic environment presents a broad range of threats 
and an unpredictable set of challenges, ranging from non-state actors 
to nuclear armed nations. We must continue to invest in our science and 
technology base to ensure that the future balance of power remains in 
our favor. This requires flexibility, versatility, and a shift to 
inherently agile, deployable, and networked systems from those designed 
for fixed purposes or limited missions.
    One initiative that we continue to pursue as we consider the 
strategic environment is the Air-Sea Battle concept. Air-Sea Battle is 
an operational concept focused on the ways and means that are necessary 
to overcome current and anticipated anti-access and area denial 
threats. By focusing on increased integration and interoperability 
between all Services, the concept ensures that joint forces maintain 
the ability to project power and protect national interests despite the 
proliferation of anti-access/area denial threats worldwide. The concept 
is not a strategy, nor does it target a specific adversary, but instead 
focuses on acquiring pre-integrated, joint capabilities. Beyond 
conflict, the Air-Sea Battle concept can enhance response to 
humanitarian missions where weather or geography may deny access.
    Even as we rebalance our forces, we are aware that the time, place, 
and nature of the next contingency can never be predicted with 
certainty. When contingencies arise, we must maintain the ability to 
respond immediately and effectively if called to action. To align with 
the DSG, the Air Force has traded size for quality. We aim to be a 
smaller, but superb, force that maintains the agility, flexibility, and 
readiness to engage a full range of contingencies and threats.
                           fiscal environment
    We recognize that because our Nation is striving to reduce spending 
and our military is transitioning operations from the U.S. Central 
Command area of responsibility and rebalancing to the Asia-Pacific 
region, the Air Force must adapt to a relatively static or reduced 
budget.
    However, reliance by the joint team and the Nation on our unique 
ability to provide Global Vigilance, Global Reach, and Global Power 
constrains Air Force options in reducing or terminating capabilities or 
missions. Therefore, we are working hard and making real progress in 
eliminating unnecessary expenses and ensuring more disciplined use of 
resources. Nonetheless, the fiscal environment requires us to make 
trades between force structure, readiness, and modernization among the 
core missions to ensure the highest quality and ready Air Force 
possible.
            Fiscal Year 2013 Sequestration Effects
    As a result of the triggering of the 2011 Budget Control Act's 
sequestration provision, the Air Force is implementing significant 
reductions to our fiscal year 2013 operations. If the post-sequester 
Budget Control Act funding caps remain in effect, the Air Force will be 
unable to achieve our agenda of reinvigorating readiness and aligning 
to the DSG. In both the short- and long-term, sequestration will have 
devastating impacts to readiness, will significantly affect our 
modernization programs, and may cause further force structure 
reductions.
    Sequestration will force the Air Force to reduce expenditures by 
around $10 billion in fiscal year 2013. These actions include a planned 
furlough of more than 170,000 civil service employees, an 18 percent 
reduction in flying training and aircraft maintenance, and deferment of 
critical facility requirements (including runway and taxiway repairs).
    Many of these actions severely degrade Air Force readiness. Lost 
flight hours will cause unit stand downs which will result in severe, 
rapid, and long-term unit combat readiness degradation. We have already 
ceased operations for one-third of our fighter and bomber force. Within 
60 days of a stand down, the affected units will be unable to meet 
emergent or operations plans requirements. Lost currency training 
requires 6 months to a year to return to current sub-optimal levels, 
with desired flying proficiency for crewmembers requiring even longer. 
Sequestration impacts are already occurring, and the fiscal year 2014 
President's budget (PB) does not assume the costs of recovering the 
readiness impacts from even a partial year of sequestration.
    Depot delays will also result in the grounding of some affected 
aircraft. The deferments mean idled production shops, a degradation of 
workforce proficiency and productivity, and corresponding future 
volatility and operational costs. It can take 2-to-3 years to recover 
full restoration of depot workforce productivity and proficiency. In 
our space portfolio, sequestration will force the elimination of some 
system redundancies, as well as other preventative maintenance actions 
designed to minimize risk. All of these sequestration impacts 
negatively affect Air Force full-spectrum readiness at a time when we 
have been striving to reverse a declining trend in this critical area.
    As a result of the Consolidated and Further Continuing 
Appropriations Act, 2013, the Air Force has been able to make limited 
funding transfers and reprogramming actions that will help alleviate 
the most problematic and immediate fiscal year 2013 funding shortfalls. 
However, the decisions that we have been forced to make in short-term 
spending may increase total costs over the long run. For example, 
sequestration cuts to Air Force modernization will impact every one of 
our investment programs. These program disruptions will, over time, 
cost more taxpayer dollars to rectify contract restructures and program 
inefficiencies, raise unit costs, and delay delivery of validated 
capabilities to warfighters in the field. The drastic reduction to 
modernization programs reduces our Air Force's competitive advantage 
and decreases the probability of mission success in the Asia-Pacific 
region.
            Sequestration Effects in Fiscal Year 2014 and Beyond
    The President's budget includes balanced deficit reduction 
proposals that would allow Congress to replace and repeal sequestration 
in fiscal year 2013 and the associated cap reductions in fiscal year 
2014-2021. If sequestration is not replaced, however, the Air Force 
will have to rebuild degraded unit readiness, accept further delays to 
modernization, absorb the backlog in depot maintenance inductions, and 
invest additional funding to restore infrastructure. While the Air 
Force has made every effort to minimize impacts to readiness and 
people, the bow-wave of reductions, deferments, and cancellations 
associated with sequestration will challenge the strategic choices made 
in the fiscal year 2014 budget submission.
    The exact impacts of sequestration on Air Force resources in fiscal 
year 2014 and beyond depend on congressional action. We do know, 
however, that the national fiscal situation will require some 
reductions that may increase risk to our readiness, force structure, 
and our ability to modernize an aging aircraft inventory. In addition, 
the outcome of the strategic choices and management review may drive 
further changes.
    As we navigate the uncertain way ahead, in order to mitigate risk 
in critical areas like readiness, force structure, and modernization, 
and to avoid a hollow force, we will continue to work with Congress to 
develop force shaping options, urgently seek another base realignment 
and closure (BRAC) round, and ask for relief from legislative 
restrictions on the reduction of excess force structure and from 
mandatory expenditures on programs that we have proposed to retire or 
terminate. To slow the growth in military compensation while also fully 
supporting the all-volunteer force, we also request congressional 
support on limiting the basic military pay raise to 1 percent and 
allowing sensible TRICARE fee and pharmacy co-pay changes.
    In spite of these fiscal challenges, the Air Force will continue to 
strive to balance reductions across the force to maintain the 
capabilities of the remaining forces and keep the Air Force strong.
                        air force core missions
    The Air Force will only remain a superb fighting force in fiscal 
year 2014 and beyond by investing in the capabilities that enable us to 
bring our five core missions to the joint team. President Truman 
assigned several roles and missions to the Air Force at its 
establishment in 1947. Today, the Air Force brings essentially the same 
interdependent, integrated, and enduring contributions to the joint 
fight:
  --Air and space superiority;
  --Intelligence, surveillance, and reconnaissance;
  --Rapid global mobility;
  --Global strike; and
  --Command and control.
    Through these core missions, our Airmen provide Global Vigilance, 
Global Reach, and Global Power for America. While the means through 
which we provide these core missions will change and evolve--for 
example, the addition of space and cyberspace--the core missions 
themselves will endure. None of these core missions function 
independently. Their interdependency and synchronization provide an 
unparalleled array of options, giving America the ability to respond 
quickly in the face of unexpected challenges.
    The five core missions shape where we invest the resources we are 
given. However, the significant reductions that the Air Force has faced 
in the last few years have required us to make difficult choices. We 
have become a markedly smaller Service--the smallest in Air Force 
history.
    Despite this decline in size, our Airmen have stepped up to the 
challenge and delivered incredible airpower for the Nation, 24 hours a 
day, 7 days a week, 365 days a year. They always respond when needed--
from combat rescue Airmen who exfiltrate the wounded from battlefields, 
to joint terminal attack controllers who direct the actions of combat 
aircraft engaged in close air support, to mobility Airmen who quickly 
airlift personnel, vehicles, and equipment in both combat and relief 
operations, to the missile combat crews who sit nuclear alert to deter 
our enemies. These brave and innovative men and women must be properly 
trained and equipped to defend the Nation. Experience has taught us 
that during periods of fiscal austerity, tough decisions are necessary 
to avoid a hollow force--one that looks good on paper, but has more 
units, equipment, and installations than it can support, lacks the 
resources to adequately man, train, and maintain them, and are not 
provided with enough capable equipment and weapons to perform their 
missions.
    In each core mission described below, we highlight what each core 
mission means, why it is important, our Airmen's recent accomplishments 
in that area, and what we are focusing on for the future with respect 
to force structure and modernization.
Air and Space Superiority . . . Freedom From Attack, Freedom To Attack
            Air Superiority
    Air superiority is foundational to the application of joint 
military power, and it ensures that the advantages of the other Air 
Force core missions, as well as the contributions of our sister 
Services, are broadly available to combatant commanders. It includes 
the ability to control the air so that our military forces do not have 
to worry about being attacked from the air, and it ensures that joint 
forces have the freedom to attack in the air, on the ground, and at 
sea. Air superiority has been and remains an essential precondition for 
conducting successful military operations. Air superiority has provided 
our Nation with a decades-long asymmetric advantage. Joint force and 
coalition commanders have come to expect mission-essential air 
superiority provided by America's Airmen. The Air Force has given them 
ample reason--not since April 15, 1953, has an enemy combat aircraft 
killed a service member in the American ground forces.
    In the six major U.S. combat operations of the last two decades, 
the Air Force's ability to provide air superiority has played an 
indispensable role in determining the outcome of each conflict. 
Recently, in Operations ODYSSEY DAWN and UNIFIED PROTECTOR, our Airmen 
patrolled the skies of Libya providing 50 percent of allied airborne 
reconnaissance and 40 percent of allied strike missions, equating to 
over 1,800 total strikes in support of the United Nations-sanctioned 
no-fly zone. In addition, the Air Force provides nearly 100 percent of 
the Nation's homeland air defense.
    Although air superiority underwrites the freedom of action required 
for all joint military operations, there is no guarantee of it in the 
future. Substantial near peer investment and proliferation of advanced 
technologies threatens this freedom of action. Our legacy, or fourth-
generation, fighter fleet has secured more than 20 years of an air 
superiority advantage, but may lose its ability operate as effectively 
in contested environments. Large-scale use of legacy aircraft in these 
environments could be inhibited by the increased survivability of 
highly lethal, advanced integrated air defenses that will likely 
persist for the duration of future conflicts. Our air superiority 
future depends on modern technology and fifth-generation fighter 
capability. Weapon systems like the F-22, with contributions from the 
F-35, are what will carry America's Air Force forward to continue to 
provide that capability. Fifth-generation aircraft possess the 
survivability to operate despite these threats, and the Nation will 
need them in quantity.
    In fiscal year 2014, the Air Force will focus on maintaining air 
superiority by investing $1.3 billion to modernize the F-22 and F-15 
fleets. The last F-22A was delivered in May 2012. The current F-22 
upgrade programs include hardware and software enhancements to improve 
electronic protection, weapons capabilities, and service life. The F-15 
is undergoing full scale fatigue testing to determine remaining service 
lifespan. In fiscal year 2014, the Air Force is requesting $308 million 
for F-15 fleet radar and electronic warfare upgrades that will permit 
it to operate in conjunction with fifth-generation aircraft in the 
future threat environment.
            Space Superiority
    Along with air superiority, space superiority is integral to our 
forces' ability to remain free from attack and have the freedom to 
attack in the air, on land, and at sea. Joint, interagency, and 
coalition forces depend on Air Force space operations to perform their 
missions every day. For example, the Global Positioning System (GPS) 
enables precision guided munitions employment by all Services, in all 
weather conditions, minimizing collateral damage and providing the 
nanosecond-level timing needed by today's interconnected and highly 
networked communications systems. Beyond defense uses, annual GPS 
benefits to the economy are in the tens of billions of dollars. Air 
Force military satellite communications (MILSATCOM) systems, including 
Advanced Extremely High Frequency (AEHF) and Wideband Global SATCOM 
(WGS) satellites, provide wideband and protected communications to 
deployed forces around the globe. This enables the command and control 
needed by our joint force commanders and allows deployed warfighters to 
receive intelligence, logistical, and other support from those serving 
at their home stations.
    In calendar year 2012, the Air Force launched nine National 
Security Space (NSS) satellites to bolster our GPS, MILSATCOM, and 
situational awareness, and this year, we have successfully launched an 
additional satellite to enhance our missile warning capability. These 
launches include putting the fourth WGS, the second AEHF satellite, and 
the Space-Based Infrared System (SBIRS) GEO-2 satellite into orbit. The 
Air Force also delivered to orbit a new communications satellite for 
the Navy, a third GPS II-F satellite, and four National Reconnaissance 
Office satellites, as well as handled the third successful launch of an 
orbital test vehicle (OTV), including the first reuse of OTV-1. These 
launches make 58 consecutive successful Evolved Expendable Launch 
Vehicle (EELV) launches to date and 90 consecutive successful NSS 
missions.
    To continue to advance our space superiority mission, the Air Force 
will continue to launch satellites to enhance the GPS, AEHF, WGS, 
Defense Meteorological Satellite Program (DMSP), and SBIRS 
constellations. In calendar year 2013, in addition to the SBIRS GEO-2 
launched in March, the Air Force has five more launches planned--two 
GPS, one AEHF, and two WGS. In calendar year 2014, the Air Force plans 
five launches--three GPS, one DMSP, and one additional EELV launch. 
Each of these launches will continue the necessary modernization of 
space-based positioning, navigation, and timing, protected 
communications, weather monitoring, and missile warning.
    Despite our success in space, we cannot take our space 
technological capabilities and advantages for granted. The barriers to 
space access have dropped; nine nations have cleared the engineering 
and technical challenges required to reach space independently, and at 
least 40 other nations have a space presence. As a result, the current 
space environment is more congested, contested, and competitive than 
ever, and we will see this trend continue for the foreseeable future. 
To ensure that America remains a nation with unfettered access to space 
and superior space capabilities, the Air Force is pursuing ways to 
maintain a resilient \1\ and affordable system architecture. Building 
and launching satellites is expensive, and we are exploring ways to 
reduce costs, increase competition, and improve resiliency without 
introducing unacceptable risk.
---------------------------------------------------------------------------
    \1\ Resilience is the ability of an architecture to support the 
functions necessary for mission success in spite of hostile action or 
adverse conditions. An architecture is ``more resilient'' if it can 
provide these functions with higher probability, shorter periods of 
reduced capability, and across a wider range of scenarios, conditions, 
and threats. Resilience may leverage cross-domain or alternative 
government, commercial, or international capabilities.
---------------------------------------------------------------------------
    Our space programs demand significant modernization investment, and 
the pace of modernization for those programs often is based on the life 
expectancy of on-orbit capabilities. The Air Force's 10 largest 
programs include four space systems upon which the joint team and the 
American public depend. We must sustain these critical space 
capabilities with a focus on warfighting and mission assurance 
priorities, while accepting risk to meet fiscal goals.
    To get our satellites safely into orbit, the Air Force has 
implemented a new EELV acquisition strategy to efficiently purchase up 
to 36 EELV common core boosters at a savings of more than $1 billion. 
This strategy also introduces a competitive environment for up to 14 
additional common core boosters for which new launch provider entrants 
can compete, starting as early as fiscal year 2015, giving new entrants 
a clear path to compete for future NSS missions. For fiscal year 2014, 
we are investing $2 billion in EELV.
    Our Efficient Space Procurement (ESP) strategy \2\ is driving down 
satellite costs, resulting in savings across the future years defense 
program (FYDP) of more than $1 billion for AEHF satellites, and 
modernizing MILSATCOM systems to provide greater capacity, force reach 
back, and access in benign, contested, and nuclear environments. To 
improve our ability to provide global, persistent, and infrared 
surveillance capabilities, the Air Force is requesting $1.2 billion in 
fiscal year 2014 for sustained funding of the Space-Based Infrared 
System (SBIRS). We have already achieved over $500 million in savings 
due to our ``block buy'' approach and have the potential for additional 
future savings in the SBIRS program due to the ESP strategy.
---------------------------------------------------------------------------
    \2\ ESP is an acquisition strategy that builds on the Office of the 
Secretary of Defense, Cost Assessment and Program Evaluation-developed 
concept known as Evolutionary Acquisition for Space Efficiency (EASE). 
EASE sought to lower the cost of acquiring space systems by using block 
buys and reinvesting the savings into the Space Modernization 
Initiative. The Office of the Assistant Secretary of the Air Force for 
Acquisition took the EASE concept as a building block and added 
``should cost/will cost'' methodology and fixed price incentive fee 
contracting.
---------------------------------------------------------------------------
    In addition to replenishing and modernizing aging satellite 
constellations in critical space mission areas, the Air Force must 
improve space surveillance and the resilience of space-based 
capabilities. Therefore, in fiscal year 2014, we are requesting $1.2 
billion to modernize the GPS space, control, and user segments, 
including the addition of new signals and enhanced anti-jam 
capabilities. To ensure precision navigation and timing capabilities in 
the future, we are also developing technologies, including chip scale 
atomic clocks, cold atoms, and vision-based navigation to reduce 
dependency on GPS. Space situational awareness (SSA) is truly 
foundational for ensuring our ability to operate safely and effectively 
in space. To improve our ability to discover, search, and monitor near 
earth objects, we are requesting $403.7 million to fund the Space 
Fence, a new system that will provide increased capacity to observe 
objects in space and, therefore, improve our ability to safely operate 
our critical space systems.
            International Space Partnerships
    The Air Force remains fully committed to the long-term goal of 
fostering international relationships and supporting ongoing security 
efforts with partner nations around the globe. Teaming with allies and 
partners not only helps cost-sharing, but it also increases their 
capability and their capacity to support contingency operations. Space 
is an area in which we have made significant progress in building 
partnerships. For example, in May 2012, the Air Force concluded a 
United States-Canada SSA partnership memorandum of understanding (MOU) 
regarding the Canadian Sapphire satellite system, and we successfully 
concluded a United States-Australia MOU in November 2012 to begin an 8-
year, bilateral effort to provide dedicated space surveillance coverage 
in the southern hemisphere. International partners are also supporting 
our SATCOM efforts. In January 2012, the Air Force signed the WGS MOU 
with Canada, Denmark, Luxembourg, the Netherlands, and New Zealand to 
enable expansion of the WGS program to a ninth satellite, thus 
increasing interoperability and partner access to the system. We are 
also acquiring and fielding the AEHF constellation in cooperation with 
our international partners from the United Kingdom, the Netherlands, 
and Canada. In addition, the Air Force has also established nine bi- or 
multi-lateral international agreements to advance the benefits of the 
GPS system.
    In coming years, our Nation's ability to gain and maintain 
superiority in air and space will become progressively more contested 
as sophisticated technologies continue to proliferate. Beyond 
modernizing our systems, the key to maintaining air and space 
superiority is ready and trained Airmen who are properly equipped for 
their mission. When called upon, these Airmen must command a well-honed 
combat edge so that they are ready to prevail even against the most 
advanced opponents.
Intelligence, Surveillance, and Reconnaissance . . . Eyes and Ears on 
        Adversaries
    Since the beginning of armed conflict, superior knowledge of 
adversary intentions, capabilities, and actions has been a critical 
enabler to victory. The evolution of globally integrated ISR has 
fundamentally changed how our military fights wars. The tremendous 
demand for Air Force ISR during recent conflicts and crises highlights 
their combat advantage. ISR capabilities are among the first requested 
and deployed, and they are increasingly essential to all facets of Air 
Force and joint operations. Airmen deliver integrated, cross-domain ISR 
capabilities that allow the Air Force to provide our Nation's decision-
makers, commanders, and warfighters with a continual information 
advantage over our adversaries.
    The Air Force ISR force is networked to provide both foundational 
intelligence and immediate warfighter support. Sensors operating in 
air, space, and cyberspace, global communication architectures, and a 
network of regionally aligned centers enable our forces to conduct 
exploitation and analytical efforts in support of combatant commander 
requirements. The Air Force Distributed Common Ground System (DCGS) is 
a critical capability within this global network, providing decision 
advantage across the spectrum of conflict, in all theaters, and in 
support of all operations.
    Last year, our ISR Airmen conducted intelligence preparation of the 
operational environment, shaped combat plans for 33 named operations, 
enabled the removal of 700 enemy combatants from the fight, and 
provided critical adversary awareness and targeting intelligence to 
U.S. and coalition forces in over 250 ``troops-in-contact'' 
engagements. ISR Airmen enhanced battlespace awareness through 540,000 
hours of sustained overwatch of tactical maneuver forces and lines of 
communication and identified over 100 weapons caches and explosive 
devices that would have otherwise targeted American and partner forces.
            ISR Force Structure and Modernization
    In fiscal year 2014, our ISR budget request maintains investments 
in the DCGS, the MQ-1 Predator, the RC-135 Rivet Joint, the RQ-4 Global 
Hawk Block 40, and U-2 programs, and makes internal adjustments in MQ-9 
Reaper program funding so that the program was able to meet a key 
acquisition milestone.
    The Air Force remains on track to field 65 MQ-1B Predator and MQ-9A 
Reaper combat air patrols by May 2014. To maintain our ability to 
conduct counterterrorism operations, we are standing-up five new 
medium-altitude remotely piloted aircraft combat air patrols in 
calendar year 2013 and continuing our transition to an all-MQ-9 fleet. 
We have built a highly effective permissive ISR capability--a growth of 
4,300 percent since 2000--but the survivability in contested 
environments of some remotely piloted aircraft (RPA) is questionable. 
Therefore, in a post-Afghanistan security environment and as we 
rebalance to the Asia-Pacific, we are reviewing the need to adjust the 
RPA mix toward more survivable systems.
    The enduring and universal requirement for ISR capabilities, 
coupled with a complex and dangerous future security environment, drive 
the need to modernize our ISR forces. This modernization will include 
improved automated tools for the Air Force DCGS, a system that allows 
the processing, exploitation, and dissemination of an enormous amount 
of information every day, as well as integrated networks that are 
secure and reliable. The regionally aligned distributed ground sites 
will be the centerpiece of our cross-domain, global ISR enterprise and 
will allow Airmen to exploit real-time data from sensors and platforms, 
even in contested environments. To modernize to an easily upgradable 
and interoperable architecture, we must overcome policy and technical 
impediments to allow for seamless intelligence sharing and integration 
with intelligence community agencies, other Services, and coalition 
partners. The fiscal year 2014 PB requests $62 million for military 
construction investments for a new DCGS building to support more than 
200 operators, maintainers, support personnel, and mission systems at 
Beale AFB, California.
    Significant reductions in Air Force-provided ISR capabilities would 
be inconsistent with the current needs of our joint forces. Although 
ISR forces will continue to engage in counterinsurgency and 
counterterrorism operations, they must also evolve to address the 
challenges of the more contested environment of the Asia-Pacific 
region, including increased emphasis on air and naval forces, as well 
as greater cooperation and partnership with allies and regional 
partners. For example, we are currently exploring potential ISR 
efficiencies that can be gained by collaborating with the Navy, and we 
continue to grow and mature our intelligence partnerships with 
strategic allies across the Pacific. One ISR Airmen will also continue 
their partnerships within the intelligence community to leverage 
national capabilities for the air component commander and better 
position combat support agencies to support air, space, and cyber 
operations.
    To enhance our ability to conduct ISR across the range of military 
operations, we must shift our efforts to solutions that enable robust 
and reliable communication architectures, all-domain data processing 
and exploitation, advanced analytical tools, and cross-domain 
targeting. We are dedicated to improving the automation and machine-to-
machine capabilities of intelligence analysis systems in order to 
deliver greater operational advantage to combatant commanders. 
Therefore, in the fiscal year 2014 PB, we are requesting an increase of 
88 personnel at the Air Force Targeting Center to support deliberate 
planning requirements, and we are investing $20 million for network 
centric collaboration targeting capabilities, which includes developing 
targeting automation tools, machine-to-machine interfaces, and auto-
populate capabilities across ISR intelligence and command and control 
systems. We also plan to add Air National Guard targeting units at two 
locations to solidify our commitment to reinvigorating the Air Force 
targeting enterprise.
    The strength of our Air Force ISR enterprise continues to be our 
professional, well trained, and dedicated Airmen, officer, enlisted, 
and civilian, who take all this technology and data and transform it 
into a decision advantage for our Air Force, our joint teammates, and 
our Nation. Air Force ISR allows our forces to own the night in 
Afghanistan, connect with partners across Europe and Africa, and 
provide warning on the Korean peninsula. The integration of air, space, 
and cyber ISR is a powerful capability--one in which we must continue 
to invest our talent and resources.
Rapid Global Mobility . . . Delivery on Demand
    The Air Force's rapid global mobility core mission projects 
American influence quickly and precisely to anywhere on the face of the 
earth. Air mobility forces provide swift deployment and sustainment 
capability by delivering essential equipment and personnel for missions 
ranging from major combat to humanitarian relief operations around the 
world and at home. On any given day, the Air Force's mobility aircraft 
deliver critical personnel and cargo and provide airdrop of time-
sensitive supplies, food, and ammunition on a global scale. America's 
mobility fleet averages one take-off or landing every 2 minutes, every 
day of the year.
            Airlift
    The Air Force provides unprecedented airlift responses through our 
strategic and tactical airlift fleets. Here at home, a 12-base effort 
was initiated within 72 hours of Superstorm Sandy's landfall in October 
2012. Active and Reserve airlift crews from Wright-Patterson Air Force 
Base (AFB), McChord AFB, and Travis AFB converged on March Air Reserve 
Base and worked together to move 356 utility workers from across 
California and 134 utility vehicles with their associated equipment--
totaling 2.4 million pounds of cargo--in less than 96 hours to places 
like Stewart Air National Guard Base and John F. Kennedy International 
Airport in New York. This Total Force effort helped quickly bring 
utility trucks and workers to where they were needed on the East Coast 
to help restore power to affected Americans 4 days sooner than if the 
vehicles and equipment would have been driven across the country.
    In calendar year 2012, Airmen flew 38,000 airlift missions, and 
over the course of 1,300 airdrops, the Air Force dropped 40 million 
pounds of life-saving sustainment to coalition forces on the ground in 
Afghanistan--86 percent more than the entire Korean War. The capability 
to airdrop personnel, equipment, and humanitarian relief, especially in 
contested environments, remains critical to our Nation's defense.
    For the inter-theater airlift fleet, C-17 procurement will complete 
this year, but essential modernization programs to standardize the 
configuration of the entire 223 aircraft fleet continue. Our fiscal 
year 2014 budget request includes $1.1 billion to continue the 
conversion of 52 C-5B aircraft to C-5M Super Galaxy aircraft, with 
expected completion in fiscal year 2017.
    In fiscal year 2014, the Air Force will also continue its efforts 
to modernize its intra-theater airlift and special operations C-130-
type aircraft. In 2014, the Air Force seeks congressional support to 
embark upon a C-130J multi-year procurement contract that will extend 
through fiscal year 2018. Over the course of this contract, we will 
procure 72 C-130J-type aircraft to further recapitalize our airlift, 
special operations, and personnel recovery platforms. The contract is 
expected to provide approximately $574.3 million worth of savings to 
the Air Force over the life of the procurement program and deliver 
aircraft earlier than annual contracts would.
    Supported by the C-130 multi-year contract, the Air Force has 
programmed $963.5 billion to continue procurement of AC/MC-130Js to 
recapitalize Air Force Special Operation Command's MC-130E/P and AC-
130H aircraft. The AC-130H recapitalization effort concludes in fiscal 
year 2014, as does the CV-22 procurement, with the purchase of the last 
three airframes.
            Air Refueling
    Mobility forces also provide in-flight refueling--the linchpin to 
power projection at intercontinental distances. Over the past 50 years, 
the Air Force has provided unparalleled air refueling capability to 
support the interests of our Nation and her allies. The Air Force flew 
16,000 tanker missions last year, and since September 11, 2001, 
America's tanker fleet has offloaded over 2.36 billion gallons to joint 
and coalition air forces. The new KC-46 tanker will help maintain this 
capability--the backbone of America's military reach--while also 
extending the range and persistence of joint and coalition aircraft.
    As the Air Force considers where to invest in this core mission 
area, we are seeking the most effective and efficient way to move 
people and equipment. We also anticipate a future that will call for us 
to provide rapid global mobility to remote, austere locations in 
contested environments. This will first require a very capable tanker 
fleet. Replacing one-third of the 50 year-old KC-135 aerial refueling 
tanker fleet with the KC-46A is our top Air Force acquisition priority. 
The KC-46A program will ensure that our Nation retains a tanker fleet 
able to provide crucial air refueling capacity worldwide for decades to 
come. In fiscal year 2014, we programmed $1.6 billion for the 
manufacture of four developmental aircraft. The initial flights of the 
KC-46A test aircraft are scheduled to begin in fiscal year 2014. The 
program is currently executing as planned, and we are on track to 
receive 18 operational aircraft by late fiscal year 2017. Until the KC-
46A reaches full operational capability, we are resourcing critical 
modernization of the KC-10 and KC-135 tanker fleets.
            Combat Rescue/Aeromedical Evacuation
    Combat rescue and aeromedical evacuation forces are other key parts 
of the rapid global mobility force. The Air Force is the only Service 
with a dedicated force organized, trained, and equipped to execute 
personnel recovery. These highly trained Airmen support Air Force, 
joint, and coalition forces in a wide variety of mission areas. With a 
unique combination of armed, highly advanced HH-60-G Pave Hawk 
helicopters and specially trained Airmen, we provide a unique 
capability to recover wounded soldiers and civilians in environments 
considered too hostile for standard medical evacuation units. In 
addition to overseas contingency deployments, these Airmen also serve 
as first responders during disaster relief and humanitarian assistance 
operations, making pararescue one of the most highly stressed career 
fields in the U.S. military. Since 2001, our combat rescue forces have 
saved over 7,000 lives, and in 2012 alone, they flew 4,500 missions 
that saved 1,128 coalition, joint and partner nation lives in some of 
the harshest environments in the world.
    Aeromedical evacuation also continues to play a vital role in 
providing responsive, world-class medical support to wounded soldiers 
and injured civilians around the globe. In calendar year 2012, the Air 
Force airlifted 12,000 patients; since 2003, we have transported a 
staggering 195,000 patients. To enhance our response to battlefield 
evacuation support, we developed and deployed tactical critical care 
evacuation teams to provide triage care on rotary wing aircraft closer 
to the point of injury. Our health response teams include rapidly 
deployable, modular, and scalable field hospitals. They provide 
immediate care within minutes of arrival, surgery and intensive care 
units within six hours, and full capability within 12 hours of 
deployment. These advances have elevated battlefield survival rates to 
unprecedented levels, with a nearly 30 percent improvement since 
Operation DESERT STORM (Iraq) in the early 1990s.
    With the recapitalization of the HC-130N/P with the HC-130J through 
the C-130 multi-year program, the Air Force continues its effort to 
modernize its personnel recovery programs. The Combat Rescue Helicopter 
Program will replace the aging HH-60G fleet, and the Operational Loss 
Replacement Program will replace HH-60G aircraft lost during operations 
over the past decade, returning the HH-60G inventory to 112 aircraft. 
This year, we budgeted $393.6 million to finalize the modification 
process and begin testing the first two aircraft. The ability of Air 
Force helicopters to fight their way in and out of medical evacuation 
and recovery operations is unique to the joint team and has proven its 
value over the past 10 years. Currently, the combat rescue fleet is 
sized appropriately to meet our global strategy.
            Mobility Force Structure
    Air Force mobility forces, including long-range strategic 
airlifters, tankers, and tactical airlifters are sized to move and 
sustain joint forces over long distances. Congress manages the long-
range fleet to a specific floor, currently 301 aircraft. However, after 
submission to Congress of a report required by the fiscal year 2013 
National Defense Authorization Act, we anticipate that this floor will 
be lowered to 275. The tanker fleet is largely right-sized to support 
the joint force. However, the tactical airlift fleet is sized somewhat 
larger than the defense strategy requires.
    Rapid global mobility will continue to be a critical core mission 
for the Air Force. Whether it is sustaining the warfighter in any 
environment or delivering hope with humanitarian assistance, Airmen 
will ensure that the whole of government and international partners are 
strengthened with this unique capability to get assets to the fight 
quickly, remain in the fight, and return home safely.
Global Strike . . . Any Target, Any Time
    As a significant portion of America's deterrent capability, Air 
Force global strike provides the Nation the ability to project military 
power more rapidly, more flexibly, and with a lighter footprint than 
other military options. The Air Force's nuclear deterrent and 
conventional precision strike forces can credibly deny adversary 
objectives or impose unacceptable costs by effectively holding any 
target on the planet at risk and, if necessary, disabling or destroying 
targets promptly, even from bases in the continental United States. 
Global strike may entail close support to troops at risk, interdicting 
enemy fielded forces, or striking an adversary's vital centers from 
great distances. Credible long-range strike capabilities are 
indispensable for deterrence and provide fundamental military 
capabilities to underpin U.S. military power. Air Force global strike 
capability relies on a wide-range of systems including bombers, 
missiles, tankers, special operations platforms, fighters, and other 
Air Force systems.
            Nuclear Deterrent Forces
    The unique attributes of the Air Force's nuclear deterrent forces--
the stabilizing characteristics of the intercontinental ballistic 
missiles (ICBM) and the flexibility of the bomber--underwrite the 
Nation's ability to achieve stability amidst the likely crises and 
challenges of the coming decades. Air Force B-2 and B-52 bombers and 
ICBM crews--who continually stand watch all day, every day--provide two 
legs of the Nation's nuclear triad, while our nuclear command, control, 
and communications systems provide the National Command Authority the 
necessary tools to employ all strategic forces. Together, our bombers, 
tankers, ICBMs, and dual-capable fighters provide this ``no fail'' 
capability as the backbone of America's deterrence.
    Against a backdrop of increasingly contested air, space, and cyber 
environments, the Air Force must maintain its ability to hold any 
target at risk and provide the Nation a credible strategic deterrent 
force. This capability, unmatched by any other nation's air force, will 
only grow in importance as America rebalances its force structure and 
faces potential adversaries that are modernizing their militaries to 
deny access to our forces. Therefore, the Air Force will modernize 
global strike capabilities to ensure that American forces are free to 
act when, where, and how they are needed.
    Consistent with the DSG, in fiscal year 2014, the Air Force is 
investing in the development of the long range strike family of 
systems. The Long Range Strike-Bomber (LRS-B)--another of the Air 
Force's three top acquisition programs--is a key piece of that effort, 
and we are requesting $379.4 million for LRS-B in fiscal year 2014. The 
Air Force is committed to leveraging mature technologies and 
streamlined acquisition processes to deliver an affordable new bomber 
with conventional and nuclear strike capabilities. Therefore, the Air 
Force will certify the LRS-B for nuclear weapons employment within 2 
years after initial operating capability to simplify the development 
and fielding of the aircraft, as well as have the benefit of conducting 
its nuclear certification on a mature system.
    While the LRS-B is in development, sustaining and modernizing B-52 
and B-2 bombers is critical to ensure that these aging aircraft remain 
viable. Upgrades to the B-2's Defensive Management System, 
communications improvements on the B-52 via the Combat Network 
Communications Technology (CONECT) program, and aircraft sustainment 
efforts, such as the anti-skid system replacement on the B-52, are just 
a few examples of steps being taken to ensure the effectiveness of our 
bomber fleet for years to come. Independent of specific platforms, we 
budgeted $122.8 million to continue the adaptive engine technology 
development effort to mature advanced propulsion technology to decrease 
fuel consumption and increase range and loiter time.
    Nuclear weapons improvements include the B61-12 tail kit assembly 
program, which is undergoing its preliminary design review. We are also 
modernizing ICBM fuzes for Mk21 and Mk12A re-entry vehicles, leveraging 
common technologies and components with the ongoing Navy fuze program.
    As long as nuclear weapons exist, the Air Force is committed to 
meeting the President's direction to maintain safe, secure, and 
effective nuclear deterrence capabilities. The quantity of nuclear-
capable bombers and ICBMs comprising the bulk of the Nation's deterrent 
force may be reduced as we continue to implement the New START Treaty. 
However, the treaty allows both sides to determine their own force 
structures, which gives us flexibility to deploy and maintain our 
strategic nuclear forces in a way that is best calculated to serve our 
national security interests. But deeper reductions must consider multi-
dimensional challenges from the world's emerging nuclear powers in a 
more complex security environment. The Nation's nuclear expertise must 
not be allowed to atrophy, and focused attention is necessary no matter 
the size of the nuclear force.
            Precision Strike Forces
    In addition to nuclear deterrent forces, our conventional precision 
strike forces hold any target at risk across the air, land, and sea 
domains. Currently, precision strike forces and armed ISR support joint 
and coalition ground forces in Afghanistan and Africa. In 2012, the Air 
Force flew and supported over 28,000 close air support sorties in 
Operation ENDURING FREEDOM (Afghanistan). However, as our forces 
rebalance to the Asia-Pacific region and as anti-access/area-denial 
capabilities proliferate, the ability of our fourth-generation fighters 
and legacy bombers to penetrate contested airspace will be increasingly 
challenged.
    Success in counterterrorism and irregular warfare missions requires 
the continued ability to conduct operations in hostile, denied, or 
politically sensitive environments, using other than conventional 
forces. Air Commandos provide specialized expertise for infiltration, 
exfiltration, precision strike, battlefield air operations, ISR, and 
aviation foreign internal defense that are essential to joint special 
operations capabilities. In 2012, Air Force special operations 
personnel executed 1,642 strike missions and 7,713 specialized mobility 
missions. Persistent special operations presence in Afghanistan and 
elsewhere, increasing requirements in the Pacific, and enduring global 
commitments will continue to stress our Air Force special operations 
Airmen and aircraft.
    In fiscal year 2014, the Air Force is concentrating on funding the 
F-35 program--one of our top three acquisition programs. While also 
complementing the F-22's world class air superiority capabilities, the 
F-35A is designed to penetrate air defenses and deliver a wide range of 
precision munitions. This modern, fifth-generation aircraft brings the 
added benefit of increased allied interoperability and cost-sharing 
between Services and partner nations. In fiscal year 2014, we are 
investing $4.2 billion in the continued development of the F-35 weapon 
system and the procurement of 19 low rate initial production Lot 8 
aircraft. The Air Force is focused on completion of the system design 
and development of the F-35 by fiscal year 2017 and requests $782.3 
million in fiscal year 2014 for this purpose.
    During F-35 development, it is imperative that we maintain our 
fourth-generation fighter fleet. The F-16 is undergoing full-scale 
durability testing to inform structural modification efforts to extend 
its service life. At least 300 F-16s will undergo a service life 
extension program and a capability enhancement called Combat Avionics 
Programmed Extension Suite, which permits them to remain relevant in 
the near-term threat environment until the F-35 is available in 
sufficient numbers. We are requesting $52.3 million in fiscal year 2014 
for these enhancements.
    Modernizing our munitions to align with the DSG is also an urgent 
requirement that is fundamental to managing the risk associated with 
combat force reductions. In fiscal year 2014, the Air Force is 
investing $1.1 billion in preferred conventional munitions, such as the 
AIM-120D, AIM-9X, AGM-158, and GBU-53, and is developing new munitions 
to address future needs. We are also continuing our efforts to ensure 
the safety, security, and effectiveness of our nuclear arsenal.
    The Air Force must maintain its ability to neutralize any target at 
any time with global strike forces so that America's military 
credibility will remain uncontested, allies will not worry, and 
potential adversaries will not be emboldened to challenge the pursuit 
of our national objectives.
Command and Control . . . Total Flexibility
    Airmen employ the Air Force's other four interdependent and 
enduring core missions through robust, adaptable, and survivable 
command and control systems. The Air Force provides access to reliable 
communications and information networks so that the joint team can 
operate globally at a high tempo and level of intensity. Air Force 
command and control systems give commanders the ability to conduct 
highly coordinated joint operations on an unequaled scale using 
centralized control and decentralized execution.
    The Theater Air Control System (TACS) is the Air Force's primary 
system to enable planning, control, and execution of joint or combined 
air operations. The senior element of the TACS is the air operations 
center (AOC). The inherently flexible capabilities of the AOC and its 
crews allow for deliberately planned responses to anticipated 
challenges and dynamically planned responses to contingencies. The Air 
Force's primary TACS weapons systems, such as the Control and Reporting 
Center (CRC), the E-3 B/C/G Airborne Warning and Control System 
(AWACS), and the E-8C Joint Surveillance Target Attack Radar System 
(JSTARS), provide the AOC with the critical battle management, sensors, 
and communications that are required to get the right information to 
the right person in a timely manner.
    In Operation ODYSSEY DAWN (Libya) in 2011, TACS Airmen enabled more 
than 2,000 sorties to enforce the United Nations' no-fly zone. In 2012, 
Air Force command and control operations included: planning, executing, 
and controlling over 60,000 combat sorties in support of Operation 
ENDURING FREEDOM (Afghanistan); over 12,000 sorties in support of 
Operation NOBLE EAGLE (U.S. air defense); over 1,700 sorties supporting 
35 defense support to civil authorities events; over 9,000 global 
aeromedical evacuation missions; noncombatant evacuation operations as 
a result of the terrorist attack on the American Embassy in Libya; and 
over 1,500 ISR missions supporting United States Southern Command and 
Northern Command. Our command and control systems enabled us to conduct 
many of these operations simultaneously.
    It is essential that we continue to modernize, upgrade, and refit 
our operational and tactical level command and control systems and 
sensors to maintain the Nation's advantage in command and control. Our 
systems are under constant attack, as illustrated by the new and more 
capable threats emerging daily in the areas of cyber weapons, anti-
satellite systems, advanced fighter/attack aircraft, and 
electromagnetic jamming. Our potential adversaries are also making 
advances by electronically linking their own combat capabilities, 
creating new military challenges that our forces must be prepared to 
address.
    To respond to these challenges, the Air Force will field advanced 
command and control systems that are more reliable, resilient, and 
interoperable. More importantly, we will recruit and train innovative 
Airmen to build, manage, and advance our complex and diverse command 
and control systems while enabling their ready use by our own and 
allied forces. Modernization of existing systems, such as the CRC and 
E-3G Block 40/45, and AOC 10.2 will serve as the backbone of this 
effort. In fiscal year 2014, we are investing $396.8 million in E-3G 
Block 40/45, $58.1 million in AOC 10.2, and $26.4 million in CRC. We 
are also funding critical investments in future capabilities, such as 
the Joint Aerial Layer Network. The Air Force has also initiated 
modernization of crucial national command, control, and communications 
systems and is investing $52.3 million in fiscal year 2014 to fund data 
linkages between fifth-generation aircraft and legacy fleets. Finally, 
the Air Force continues to examine alternatives for the future of the 
JSTARS mission area.
            Cyber Capabilities
    The capability to deliver airpower is intimately dependent on the 
ability to operate effectively in cyberspace, which is critical to all 
of our core missions and many of our command and control systems. 
Operations in cyberspace can magnify military effects by increasing the 
efficiency and effectiveness of air and space operations and by helping 
to integrate capabilities across all domains. Pervasive and highly 
interconnected, cyberspace operations will remain extremely contested. 
The United States faces cyber-attacks on key infrastructures. The cost 
of entry is low, anonymity is high, and attribution is difficult. The 
Air Force recognizes the severity of these threats, as well as the 
speed and interconnected nature of cyberspace, and is dedicated to 
ensuring the access and freedom of maneuver that are essential for 
effective cyber operations.
    Cyber roles and responsibilities are certainly not exclusive to the 
Air Force; however, the integration of cyber capabilities with each of 
our core missions is an essential component of how we bring innovative, 
globally focused ``airmindedness'' to ensure our warfighting advantage. 
In fiscal year 2013, the Secretary of Defense decided on a new force 
model for Department of Defense (DOD) cyber operations. This model will 
increase the Air Force cyber force structure and manning.
    The additional manpower will provide the Air Force capability for 
national, combatant command, and Air Force cyber missions. For example, 
the Air Force has increased funding to $3.6 million in fiscal year 2014 
to Cyber Hunter teams who provide precision capability to identify, 
pursue, and mitigate cyberspace threats affecting critical links and 
nodes within the Air Force network.
    The Air Force will continue to synchronize forces across air, 
space, and cyberspace to achieve mission success in dynamic 
battlespaces and support integrated and interoperable joint command and 
control capabilities that are agile, responsive, and survivable, even 
in contested environments.
                    airmen readiness and development
    While it is common to define the Air Force by its core missions or 
by our aircraft, missiles, and satellites, the reality is that our 
Service's unmatched capabilities exist only because of the imagination 
and knowledge of our outstanding Airmen. Accordingly, we believe in 
taking care of our people first, while always remaining focused on the 
mission. To ensure that our Airmen can continue to power the enduring 
core missions for the Nation, we must invest in their readiness and 
development.
Readiness
    Underpinning our Airmen's ability to provide Global Vigilance, 
Global Reach, and Global Power to the Nation and contribute our core 
missions to the joint team is their readiness. ``Readiness'' is the 
ability of a unit to provide its designed operational capabilities 
within the required timeline. It is comprised of personnel 
requirements, training (to include flying hours), weapon system 
sustainment, facilities, and installations. A good readiness posture 
depends on health in all of these key areas. While protecting future 
readiness includes modernizing the weapons systems and equipment, 
creating combat readiness in the near-term is a complex task involving 
the intersection of personnel, materiel, and training. It includes 
balancing time between operational and training commitments, funding 
from multiple sources, informed levels of risk, and effectively 
managing resources to achieve the desired state of readiness.
    Mitigating the risk associated with a smaller military requires a 
fully ready force. A smaller force with less capacity requires greater 
attention to ensuring adequate personnel levels, aircraft availability, 
weapons, and sufficient training to support the full range of mission 
requirements at the desired level of competency. If we attempt to 
sustain current force levels while personnel and operational costs 
rise, there will be progressively fewer resources available to support 
our current number of installations, maintain existing aircraft 
inventories, vital equipment, and weapons, and invest in future 
capabilities. These factors become more critical as shortages in 
aircraft availability, weapons, and key personnel grow and exert a 
larger negative effect on the overall readiness of the force.
    While the Air Force has met the demands of a high operational tempo 
in support of today's fight, this has inevitably taken a toll on our 
weapons systems and people, putting a strain on the overall readiness 
of the force. As reflected by Office of Secretary of Defense (OSD)-
mandated Status of Requirements and Training System (SORTS) metrics, we 
have seen a steady decline in unit readiness since 2003; our readiness 
must improve. The rebalance to the Asia-Pacific and our continued 
presence in the Middle East and Africa indicate that the demand for Air 
Force capabilities will remain constant, or perhaps even rise, over the 
next decade.
    Currently, the bulk of the funding for maintaining numerous 
missions initially fielded with overseas contingency operations (OCO) 
funding (e.g., MQ-1/9, MC-12, and the E-11A with its battlefield 
airborne communications node capability) remains in the upcoming fiscal 
year 2014 budget request. If the Air Force is to retain those 
capabilities for the long-term, funding for the aircraft and the 
capabilities and the infrastructure that supports them must migrate 
from OCO funding to an adjusted base budget. If the base budget is not 
adjusted, these capabilities will either have to be retired or be 
retained at the expense of other full spectrum forces and capabilities, 
which would increase risks.
    The Air Force supports combatant command missions that require 24/7 
availability and attention. Space operations, command and control, 
cyber defense, ISR, special operations, personnel recovery, and nuclear 
deterrence are all high priority missions that cannot be done 
adequately, and in some cases cannot be done safely, at low readiness 
levels. In support of U.S. defense strategy, air forces are inherently 
capable of responding quickly and can be shifted on relatively short 
notice between critical theaters of operation. Allowing the Air Force 
to slip to a lower state of readiness that requires a subsequent long 
buildup to full combat effectiveness will negate the essential 
strategic advantages of airpower and put joint forces at increased 
risk.
    Therefore, the Air Force's portion of the fiscal year 2014 PB 
aligns resources in an effort to slow the readiness decline and sets 
the stage for restoring full-spectrum readiness. However, as noted 
previously, the effects of sequestration in fiscal year 2013 will 
hamper our readiness efforts in fiscal year 2014 and beyond. The 
pillars of our full-spectrum readiness effort include: a consistent, 
equitable, and attainable flying hour program; prioritized full-
spectrum training venues; focused weapons systems sustainment funding; 
appropriate reallocation of manpower to our highest priority missions; 
sustainment of our power projection platforms (Air Force 
installations); and developing and caring for Airmen and their 
families.
    Through planned funding of weapons system sustainment, the flying 
hours program, training ranges, facilities and installations, and 
modernization programs, the Air Force could maintain its legacy of 
``spring-loaded'' readiness. In the past 35 years, the Air Force has 
been called upon nearly 150 times to conduct combat or humanitarian 
operations in more than 45 countries, and combat sorties in the U.S. 
Central Command area of responsibility have continued uninterrupted 
since 1991. The completion of combat operations in Iraq and Afghanistan 
are important milestones that should provide an opportunity to reset 
the force, but other international security challenges remain and, in 
some cases, are growing. America will continue to need a ready Air 
Force.
            Weapons System Sustainment (WSS)
    WSS is a key component of full-spectrum readiness. Years of combat 
demands have taken a toll across many weapons systems, and we continue 
to see an increase in the costs of WSS requirements, which are driven 
by sustainment strategy, complexity of new weapons systems, operations 
tempo, force structure changes, and growth in depot work packages for 
aging, legacy aircraft. With recent force structure reductions, we must 
carefully manage how we allocate WSS in order to avoid availability 
shortfalls.
    The fiscal year 2014 budget submission adds $1.5 billion to the WSS 
portfolio across the FYDP. Although the fiscal year 2014 PB adds 
baseline funds for WSS, we continue to rely on OCO funding for global 
contingency operations.
    WSS funding requirements for combat-ready air, space, and cyber 
forces have consistently increased at a rate double that of DOD 
inflation planning factors. Although service life extension programs 
and periodic modifications have allowed our inventory to support 20 
years of unabated operations, the cost of maintenance and sustainment 
continues to rise. As a result, we want to improve the link between 
resources and readiness for Air Force weapons systems by reducing 
costs, improving risk-based decisionmaking, and balancing costs with 
performance. To address the trend of higher costs, we are reviewing and 
streamlining organizations and processes to reduce maintenance and 
material costs, develop depot efficiencies, and manage weapons systems 
requirements growth. We are taking actions to reduce requirements by 
examining the potential for restructuring or modifying new and existing 
contractor logistics support contracts to optimize tradeoffs, provide 
visibility, and improve flexibility between costs and outcomes. We will 
also leverage risk-based strategies and evaluate maintenance schedules 
to maximize aircraft availability and apply performance-based logistics 
solutions to balance total sustainment costs with performance.
    Despite our efforts, WSS costs are still expected to grow, and new, 
more capable aircraft are often more expensive to maintain than those 
they replace. In the current fiscal environment, our efforts to restore 
weapons system availability to required levels will be a serious 
challenge.
            Flying Hour Program (FHP)
    The emphasis on readiness in the DSG reinforced the need to 
implement a FHP that achieves full-spectrum readiness. The Air Force 
balanced the allocation of flying hours across the Total Force to 
incrementally improve readiness levels. The flying hour program will 
continue to rely on OCO funding to support Operation ENDURING FREEDOM 
and the redeployment of combat forces from Afghanistan. With the 
expectation of decreasing OCO flying hours, we have programmed 
increasing O&M-funded flying hours in fiscal year 2015 and throughout 
the FYDP. Beginning in fiscal year 2015, the program is approximately 
90 percent of the peacetime training requirement to attain full-
spectrum readiness across the Total Force, reflecting our assessment of 
the full executable program.
    We are also committed to a long-term effort to increase our live, 
virtual, and constructive operational training (LVC-OT) capability and 
capacity by funding improvements in LVC-OT devices (e.g., simulators 
and virtual trainers) and networks. Adjustments to the flying hour 
programs will continue to evolve as the fidelity of simulators and LVC-
OT capabilities improve. Increasing our virtual capabilities will 
minimize fuel consumption and aircraft maintenance costs while ensuring 
high quality training for our aircrews. In fiscal year 2014, we are 
investing $3.3 million for LVC-OT purposes.
            Training Ranges
    Full-spectrum training requires the availability of air-to-air and 
air-to-ground training ranges. Many of our ranges are venues for large-
scale joint and coalition training events and are critical enablers for 
concepts like Air-Sea Battle. In fiscal year 2014, we are requesting 
range O&M funding of $75.8 million to sustain these crucial national 
assets to elevate flying training effectiveness for the joint team, 
which in turn improves individual and unit readiness levels. 
Unfortunately, previous years' baseline range funding was at levels as 
low as 25 percent of requirements, resulting in a corresponding 
corrosive effect as range infrastructure deteriorated and aircrews only 
maintained readiness in skill sets oriented toward current combat 
operations. This year, we are reversing this trend by raising baseline 
range funding to 74 percent of requirements to begin a return to full-
spectrum readiness. As we continue to realign to the DSG, additional 
range investment and sustainment funding will be necessary to ensure 
that our combat forces are prepared for the full range of potential 
threats and environments.
    In fiscal year 2014, the Air Force is poised to work with the joint 
community to establish cyber ranges that enable realistic testing and 
evaluation of new cyber concepts, policies, and technologies. These 
ranges will provide a venue for evaluating network services, 
information assurance, and offensive and defensive cyber capabilities 
in a closed and secure environment. Coupled with the Air Force's 
program for simulator-based cyber education, training, crew 
certification, and exercises, these cyber ranges will provide trained 
and tested cyber operators able to strike targets anywhere on the 
globe, as well as defend against foreign and domestic attacks.
            Facilities, Installations, and Energy
    From cyber to long-range strike, installation readiness buttresses 
the Air Force's core mission. Therefore, the Air Force's fiscal year 
2014 budget request employs a balanced approach to our installation 
investment strategy. Our installations are power projection platforms 
comprised of both built and natural infrastructure that: (1) 
effectively enable Air Force core operational capabilities--we deliver 
air, space and cyber capabilities from our installations; (2) send a 
strategic message of commitment to allies and intent to adversaries; 
(3) foster partnership-building by stationing our Airmen side-by-side 
with our coalition partners; and (4) enable worldwide accessibility in 
times of peace or conflict. Therefore, we must maintain sustainable 
installations to enable Air Force support to the vectors outlined in 
the DSG.
    In the fiscal year 2014 PB, the Air Force returned military 
construction (MILCON) investment levels to near historic norms 
following the deliberate pause of fiscal year 2013. This year, the $1.2 
billion investment focuses on supporting beddown requirements for the 
F-35 and KC-46, combatant commanders' top priorities in cyber and 
nuclear deterrence, and the re-balance to the Asia-Pacific theater.
    Recognizing the links between MILCON and facilities sustainment, 
restoration, and modernization (FSRM), we are funding facilities 
sustainment at 80 percent of the OSD facilities sustainment model 
requirement, and we added over $400 million for restoration and 
modernization across the FYDP to enable consolidation efforts and 
improve the quality of our most mission-enabling facilities.
    Foundational to all of our efforts, energy enables the force and 
sustains our national security posture. Energy, which comprises about 8 
percent of the Air Force budget, enables Air Force core missions, and 
fuels our operational capabilities. The Air Force recognizes the 
vulnerability and volatility created by our dependence on finite, non-
renewable energy supplies. Therefore, we are committed to increasing 
energy security and becoming ever more energy efficient. We have 
already made great strides in reducing consumption and improving 
efficiency. Since 2006, the Air Force has reduced its fuel consumption 
by 12 percent, exceeding a 10 percent reduction goal 3 years ahead of 
schedule.
    Overall, our focus is to reduce our energy footprint across all 
operations. Investments we made in fiscal year 2012 to improve our 
facility energy efficiency and reduce our energy requirement are 
expected to start generating savings in fiscal year 2014. The Air Force 
is also looking to improve its energy security and diversify its energy 
supply through increased use of renewable energy. We also plan to 
improve our energy security by making the most of private sector 
knowledge, technology, and financing to capitalize on underutilized 
land on our installations.
            The Need for Base Realignment and Closure
    As we make efforts to improve and sustain our installations, we 
also recognize that we are carrying infrastructure that is excess to 
our needs. A capacity analysis conducted prior to the 2005 BRAC 
suggested that the Air Force had 24 percent capacity that was excess to 
our mission needs. However, the 2005 BRAC did not make major reductions 
to Air Force facilities, and since that time, we have reduced our force 
structure by more than 500 aircraft and reduced our active duty 
military end-strength by seven percent. The Air Force currently has 
significant excess infrastructure that is very expensive to maintain in 
terms of both financial and human resources. In the current and 
projected fiscal environment, we simply cannot afford it. The Air Force 
has limited authority under current public law to effectively 
consolidate military units or functions and divest excess real 
property. The money that we are spending on maintaining excess 
infrastructure is more urgently needed to recapitalize and sustain our 
weapon systems, improve readiness, and invest in the quality of life 
needs of Airmen.
            Readiness and Modernization
    The decline in future budgets does not allow us to improve 
readiness while also maintaining force structure and continuing all 
planned investment programs. To prioritize readiness, we have made a 
conscious choice to take some risk by making sacrifices in 
modernization programs. Although we have been more effective in our use 
of operating resources and garnered savings from better business 
practices,\3\ the Air Force has been forced to terminate or restructure 
several programs. Program restructures and terminations include 
terminating the Space Based Surveillance Block 10 follow-on, freezing 
Gorgon Stare at Increment II, terminating Air Force participation in 
the Joint Precision Approach and Landing System land-based segment, and 
divesting the UAV (unmanned aerial vehicle) Battlelab in fiscal year 
2014.
---------------------------------------------------------------------------
    \3\ There are $1.3 billion in fiscal year 2014 funding reduction 
adjustments and $7.9 billion across the future years the Air Force has 
categorized as being reflective of a more disciplined use of resources. 
Program terminations and restructures are $2.4 billion of this total. 
Savings from better business practices and more effective use of 
operating resources total $3.2 billion across the future years.
---------------------------------------------------------------------------
    The Air Force also terminated acquisition of the underperforming 
Expeditionary Combat Support System (ECSS). ECSS was initiated in 2005 
in an effort to provide end-to-end visibility of the Air Force's supply 
chain and enable better logistics decisionmaking. As planned, ECSS 
would have transformed the logistics enterprise, making all aspects 
interoperable and synchronized with the financial and accounting 
systems to enhance business and mission operations and realize 
efficiencies. Unfortunately, after several years of schedule delays, 
poor contractor performance, and cost increases, we determined that the 
program could not meet the fiscal year 2017 financial improvement and 
audit readiness statutory requirement and was not likely to achieve 
other promised capabilities at an affordable cost. Instead of 
continuing to spend money on an underperforming program, the Air Force 
determined that the prudent course of action was to pursue other ways 
to transform our logistics business processes.
    The fiscal year 2013 sequestration cuts took away all program 
flexibility, deferred some buys, added risk to many programs while at 
the same time forced us to reallocate investment funds to more critical 
O&M needs. Budget projections for fiscal year 2014 and beyond, along 
with the fiscal year 2013 cuts, may force us to halt or slow pending 
development or productions milestones on 11 acquisition category (ACAT) 
1 programs. Small scale program terminations began in fiscal year 2013, 
and we will have to consider expanding terminations in fiscal year 
2014. Similarly, several key modernization priorities remain unfunded 
given the current fiscal environment, including a replacement for the 
aging T-38 trainer and the JSTARS surveillance aircraft.
    America's Air Force remains the most capable in the world, but we 
cannot allow readiness levels to decline further and modernization 
cannot wait for the next cycle of increased defense spending. We have 
important production lines under way and development programs that are, 
or will soon be, mature enough for production. Cancelling programs in 
anticipation of a future generation of technology would be wasteful 
and, in some cases, risk the loss of critical engineering talent and 
technological advantage. New threats and corresponding investment needs 
are not theoretical possibilities for the future. They are here, now. 
The future success of the Nation's military and the joint team depends 
on modernizing our Air Force and keeping it ready to fight.
Airmen Development
    The Air Force's strategic advantage begins with its ability to 
attract, recruit, develop, and retain innovative warriors with a 
commitment to high standards and our core values of Integrity First, 
Service Before Self, and Excellence In All We Do. To accommodate an 
uncertain and fiscally challenging future, we must continue to invest 
in our Airmen through education, professional development, and support 
programs for Airmen and their families, coupled with other programs to 
maintain a safe, respectful, and positive work environment. We are 
focusing on the recruitment, development, retention, and overall 
effectiveness of each individual Airman. Through this investment, we 
will not only improve the capability of today's force, but also 
illustrate our commitment to future generations of Airmen to ensure a 
diverse and inclusive rich pool of the highest quality recruits well 
into the future.
            Sexual Assault Prevention and Response
    Providing a safe, respectful, and productive work environment is 
the responsibility of every Airman at every level, and we are working 
hard to achieve this. We do not tolerate sexual assault. In the last 
year, the Air Force redoubled its efforts to eradicate sexual assault 
within our ranks, and we have invested in several programmatic, 
educational, and resourcing efforts aimed at reinforcing a zero 
tolerance environment. When sexual assaults are alleged, we are 
providing improved support to victims. In coordination with OSD, the 
Air Force created a special victims capability comprised of specially 
trained investigators, prosecutors, paralegals, and victim and witness 
assistance personnel. A cadre of 24 special investigators has received 
special victim training, along with 16 senior trial counsel, nine of 
whom specialize in the prosecution of particularly difficult cases, 
including sexual assault cases. In addition, 60 Air Force attorneys 
have been identified and trained to serve as ``special victims' 
counsel'' to provide comprehensive and compassionate representational 
legal assistance to victims. Special victims' counselors currently 
represent over 200 sexual assault victims. The Air Force has also 
approved all 46 expedited transfer requests for Air Force victims over 
the past year, to include both permanent change-of-station and local 
installation reassignments, and we continue to employ over 3,100 
volunteer victim advocates. In accordance with the fiscal year 2012 
National Defense Authorization Act (NDAA), each of these volunteer 
victim advocates will receive full certifications to provide 
confidential victim support beyond the training they already receive, 
and the Air Force is on track to place a full-time victim advocate at 
every installation by October 1, 2013.
            Innovative, Global Airmen
    Globalization and the pace of technology advances are accelerating. 
Airmen work with advanced technology every day, and developing 
innovative and technically-savvy Airmen to continue to operate on the 
cutting edge is the lifeblood of our Service. The Air Force's ability 
to leverage and field crucial technologies is dependent on America's 
aerospace research and development infrastructure--a national asset 
that must be protected to ensure future U.S. advantages in technology, 
commercial aviation, and space. Accordingly, we are protecting science 
and technology funding as a share of our total resources. To ensure 
that Airmen increase their technical acumen, we are strategically 
managing our science, technology, engineering, and math (STEM) 
workforce and conducting outreach activities to recruit and train an 
adequate and diverse STEM talent pool to develop, operate, and maintain 
our technical advantage. While Airmen must remain technically 
proficient, we are most interested in whole person development--
creating leaders of character who demonstrate creativity and empathy in 
addition to technical competency.
    Globalization also makes the development of a global community of 
Airmen a more achievable goal. Efforts to enhance the language and 
cultural skills of the force continue to lay the groundwork for access 
and coalition building activities that enable future cooperative 
efforts with friends and allies. Likewise, outreach through foreign 
professional military education programs where members of other nations 
attend Air Force programs, as well as personnel exchange programs, 
significantly increases the likelihood of current and future 
cooperative relationships. The combined effects of these personnel 
programs and relationship-building efforts help ensure that future 
leaders of friendly foreign air forces will continue to regard the U.S. 
Air Force as one of the finest air forces in the world.
            Airmen and Family Support
    The quality of Airmen and family support programs remains a 
critical element of the Air Force resilience program. Using a strength-
based approach to the resilience program builds an improved ability to 
cope with stress and forms the basis for an approach for suicide 
prevention. Regardless of the fiscal environment, the Air Force must 
continue to address the Service's evolving demographics and maintain 
balanced, healthy, and resilient Airmen and families. We will adjust, 
consolidate, or eliminate services where required to meet changing 
demands, capitalize upon community resources, and gain efficiencies 
where possible.
    To better support our Airmen and families, we continue to move 
forward with our ``3 to 1 Total Force Personnel Management'' 
initiative. This effort integrates personnel management policies, 
processes, and procedures across the Total Force to create a more 
efficient and effective Air Force. To the greatest extent possible, ``3 
to 1'' will yield uniformity, enhance coordination across components, 
optimize war fighter support, and improve service levels for our 
Airmen. This effort will also eliminate cumbersome paper-based 
personnel workflows, standardize human resource management under common 
directives, and provide ``one-stop shopping'' for personnel support 
from anywhere, at any time. Finally, we expect this effort to ease 
Airmen transitions on and off active duty and across the three 
components, all of which are vital to our Air Force mission.
    Our Airmen continue to contribute significant capabilities in the 
joint arena and do so with the integrity and excellence expected of 
them. They remain committed to the Air Force mission and our core 
values. It is imperative for us to apply sufficient resources coupled 
with well-informed personnel policies to support and maintain our high 
quality, all-volunteer force, retain their trust and confidence, and 
empower them to fly, fight, and win.
                    active/reserve component balance
    Today's Total Force consists of about 329,500 Regular Air Force (or 
Active) Airmen, 105,700 Air National Guardsmen, and 70,900 Air Force 
Reserve Airmen actively serving in the Selected Reserve, as authorized 
by the fiscal year 2013 NDAA. For fiscal year 2014, the total number of 
Airmen will decrease slightly to 327,600 Active Airmen, 105,400 
Guardsmen, and 70,400 Reservists. In addition to these numbers, the Air 
Force Reserve maintains a strategic depth of more than 790,000 stand-by 
or non-participating Reservists and retirees who can be called up for 
national emergencies. We are one Air Force--Regular Air Force, Air 
National Guard, and Air Force Reserve Airmen--working together as a 
Total Force team every day around the world.
    There is great interdependence between Active, Guard, and Reserve 
forces. We must ensure the right balance between them because too much 
force structure in the Active component does not capitalize on 
potential lower operational costs of personnel and installations in the 
Reserve component. Too little force structure in the Active component 
requires Guardsmen and Reservists to deploy more often--even in 
peacetime--which breaks the model of a part-time force, threatens the 
sustainability of the Total Force, and increases costs significantly.
    The analytical foundation used to develop Active and Reserve 
component force balance starts with the National Defense Strategy. The 
strategy is based on scenarios and associated concepts of operation and 
forces developed by the Office of the Under Secretary of Defense for 
Policy, the Joint Staff, and the Office of the Secretary of Defense, 
Cost Assessment and Program Evaluation. These scenarios form the common 
starting point for all DOD force structure assessments and include 
major contingency demand (i.e., surge) as well as pre- and post-
contingency rotational demand (non-surge and post-surge, respectively). 
Force demands, both surge and post-surge rotational, are compared to 
projected inventories to determine how much and what type of force 
structure is required. Capabilities and risk are balanced across the 
Air Force's core missions to field the most capable and sustainable 
force within available resources. Analysis of Active and Reserve 
component force levels provides insights into the balance within this 
force that can most effectively and efficiently meet demand within DOD 
deployment goals.
    Maintaining the appropriate Active and Reserve component force mix 
is critical to the ability of the Air Force to meet forward presence 
requirements, maintain rapid response, and meet high-rate rotational 
demands within a smaller force. Additionally, appropriate force mix is 
critical to the sustainment, readiness, and health of the Total Force 
components. Force mix decisions cannot be made based solely on cost. We 
must consider the symbiotic relationship of the Active and Reserve 
components and treat the three components as a complete system, 
evaluating the effects of change on all components to better understand 
unintended consequences to the whole. For example, Reserve forces 
depend on healthy Active component forces from which trained and 
experienced Airmen transition to part-time status. If the Active 
component force becomes too small, the flow of personnel into the 
Reserve component will slow, driving the Reserve components to increase 
direct-entry recruitment, causing experience levels to fall and costs 
to rise. Our analysis also will consider how the Reserve component 
leverages important civilian skills and experience, such as in cyber, 
for the needs of the Nation. Air Force leaders must have the 
flexibility to reorganize force structure within the Active and Reserve 
components to maintain the health of the Total Force and its ability to 
ultimately execute the National Military Strategy.
            Total Force Initiatives
    To get a better understanding of our Total Force mixture, we 
launched the Total Force Task Force, a team led by three two-star 
general officers from the Regular Air Force, the Air National Guard, 
and the Air Force Reserve. The Total Force Task Force is leading a 
reassessment of the Air Force's efforts to develop the appropriate 
Active and Reserve component balance through processes that enable the 
Department of the Air Force to leverage the inherent strengths, unique 
aspects, and characteristics of each component. The Total Force Task 
Force is conducting a comprehensive review of Total Force requirements 
and will develop strategic options to ensure that the Air Force 
balances the strengths of each component while sustaining necessary 
capabilities in the years ahead. The team is scheduled to present their 
findings by October 1, 2013. We expect the task force to serve as a 
focal point for the National Commission on the Force Structure for the 
Air Force that was directed by Congress and is scheduled to provide a 
report to the President by February 1, 2014.
    Total Force Integration (TFI) works to shape the most capable force 
possible under fiscal and operational constraints for our current and 
future force. TFI associations are a cost-efficient value to the 
taxpayer as the Active and Reserve components share equipment and 
facilities. We are increasing the number of units that partner Active, 
Guard, or Reserve Airmen at a single location. We currently have 121 
such unit associations and plan to add additional associations; 
however, implementation of the fiscal year 2013 NDAA may affect the 
number of associations. Already a success story for mobility forces, we 
are planning for every U.S.-based Reserve fighter unit to become an 
association with the Regular Air Force within the FYDP, as will the 
continental United States locations for the KC-46 tanker. We will 
continue to refine this combination of Active and Reserve forces across 
all appropriate areas of the Total Force.
    Force structure changes require continual dialogue between the 
Active component, the Air Force Reserve, the Air National Guard, and 
the respective governors. Over the past year, we have worked with OSD, 
the National Guard Bureau, and the Council of Governors to formalize a 
consultative process to exchange views, information, and advice, 
consistent with the applicable guidelines on programming and budgetary 
priorities and requirements on matters specified in Executive Order 
13528. Recently, DOD and the Council of Governors agreed to the 
``State-Federal Consultative Process for Programming and Budgetary 
Proposals Affecting the National Guard.'' This process will, among 
other things, increase National Guard involvement in DOD's planning, 
programming, budgeting, and execution processes and improve the 
dialogue between the Council of Governors and the DOD before resource 
decisions affecting the National Guard are made. It is essential that 
we manage the health of the Total Force holistically, and we are 
committed, now more than ever, to strengthen our integration of effort.
                               conclusion
    From airpower's earliest days, Airmen have exploited technology to 
provide essential knowledge and information on when and where to act, 
to move people and materials when and where needed, to control the 
ultimate high ground, and to strike when and where directed.
    We are confident in our Airmen. They are the best in the world, and 
we can rely on them to meet any challenge, overcome any obstacle, and 
defeat any enemy--as long as they are given adequate resources and the 
freedom to innovate. As they have time and again, our innovative Airmen 
will find new and better ways to approach future military challenges 
across the spectrum of conflict, throughout every domain, and against 
nascent and unpredicted threats.
    The Air Force's core missions will continue to serve America's 
long-term security interests by giving our Nation and its leadership 
unmatched options against the challenges of an unpredictable future. In 
the last several decades, Air Force airpower has been an indispensable 
element of deterrence, controlled escalation, and, when so tasked by 
the Nation's leadership, been an instrument of destruction against an 
adversary's military capability--all accomplished with minimal 
casualties to U.S. servicemen and women and civilians. However, 
investments in Air Force capabilities and readiness remain essential to 
ensuring that the Nation will maintain an agile, flexible, and ready 
force. This force must be deliberately planned and consistently funded, 
as reconstitution of a highly sophisticated and capable Air Force 
cannot occur quickly if allowed to atrophy.
    Today's Air Force provides America an indispensable hedge against 
the challenges of a dangerous and uncertain future. Regardless of the 
future security environment, the Air Force must retain and maintain its 
unique ability to provide America with Global Vigilance, Global Reach, 
and Global Power.
    We are committed to excellence and we will deliver with your help. 
We ask that you support the Air Force budget request of $114.1 billion 
for fiscal year 2014.

    Senator Durbin. Thank you, Mr. Secretary.
    General Welsh, your written statement will be made part of 
the record. If you'd like to summarize it, so we can move to 
questions, I'd appreciate it very much.
STATEMENT OF GENERAL MARK A. WELSH, III, CHIEF OF 
            STAFF, UNITED STATES AIR FORCE
    General Welsh. Mr. Chairman, in that case, let me just 
thank you, Vice Chairman Cochran, Chairwoman Mikulski, and 
Senator Shelby. Thank you so much for letting us be here.
    Members of the committee, for the last 5 years, Secretary 
Mike Donley, who I have the privilege of joining before this 
committee today, has led our Air Force with great dignity and 
respect for all of our airmen. And I would just like to take 
this opportunity to publicly thank him for that. He didn't have 
to commit himself to this job the way he has, and we are deeply 
appreciative.
    Mr. Chairman, in summary, let me just tell you that I'm 
looking forward to the discussion on sexual assault and on the 
missile incident. I've been doing this for 37 years now. And, 
Chairwoman Mikulski, no one is more frustrated than I am. I 
look forward to your questions and this discussion.
    We need your help. And we have a lot of work to do on our 
end.
    Sir, the biggest thing we're focused on in this particular 
budget request is returning to some form of readiness that will 
allow us to respond to the needs of the Nation rapidly and 
taking advantage of the strategic advantages of airpower. 
That's what our Air Force is all about for the Nation.
    I think this budget request does move us in that direction. 
My job, in concert with the Secretary, is to create the most 
capable, credible Air Force in the world for this Nation. We 
need your help to do that. That's why we're here.
    Thank you, sir.
    Senator Durbin. Thank you, General Welsh.
    Let me say at the outset that we all have the greatest 
respect and admiration and appreciation for the hundreds of 
thousands of men and women who are in the active Air Force, the 
Guard and Reserve, who literally give their lives and risk 
their lives for us every single day.
    Any questions that we ask today in relation to the 
operation of the Air Force should not be taken in any personal 
context. We have a debt of gratitude to these men and women, as 
well as to you, for the service you've given to our Nation.
    Since I know that Chairwoman Mikulski, and possibly Senator 
Murray, are going to raise questions on the sexual assault 
issue, I won't address that. The fact that I haven't added it 
as my first issue should not diminish in any way people's 
understanding of my feelings about this, which are as intense 
as have been expressed by the chairman.
    I do have to go to this issue that has been raised this 
morning, in terms of Minot Air Force Base.
    Arguably, the most awesome responsibility of the commander 
in chief, the President of the United States, is a decision of 
nuclear launch. That would be a decision which would literally 
involve the United States in taking thousands of lives 
someplace in the world in defense of our country.
    I would also argue that when it comes to the men and women 
of the military, it is hard to think of a more awesome 
responsibility than to execute that order from the commander in 
chief.

        NUCLEAR INSPECTION AT MINOT AIR FORCE BASE, NORTH DAKOTA

    This news report that was made today out of Minot Air Force 
Base could not be more troubling. The fact that an 
unprecedented 17 officers have, at least temporarily, if not 
more, been removed from their responsibility of monitoring this 
nuclear missile launch site, strikes at the core of the 
responsibility of our chain of command.
    I've read this now several times this morning. And each 
time I read it, there are elements in here that are more 
troubling.
    This is the result of a March inspection at Minot. 
Obviously, they don't execute these inspections and tests in 
the real world, but they do it as a matter of testing, as to 
how they would respond and did respond and should respond if 
the order is given.
    They received the equivalent of a ``D'' grade when tested 
on mastery of Minuteman III missile launch operations. One Air 
Force source called the inspection a success. The net result of 
it, though, was that 17 officers were removed from the highly 
sensitive duty of standing 24-hour watch over the Air Force's 
most powerful nuclear missiles.
    Mr. Secretary, this isn't the first time that we have had 
the question raised about maintaining our readiness and being 
at the highest levels of professionalism when it comes to this 
nuclear capacity.
    You'll recall this incident that occurred back in 2007-
2008, when some B-52s were flying between Minot and Barksdale. 
It turns out they were carrying nuclear-armed missiles and 
apparently weren't supposed to be carrying those. Heads rolled 
as a result of that, and there were dramatic changes made. 
There was an official review and a new resolve that this would 
never happen again. Yet here we are today, with this situation.
    Can you explain to me how we could possibly reach the point 
with this critical assignment within the U.S. Air Force where 
there would be such a lack of professionalism and readiness at 
this high level?
    Mr. Donley. Mr. Chairman, let me assure you that I am 
confident in the Air Force's ability to maintain a safe and 
secure nuclear deterrent. The circumstances that you referred 
to some years ago are very much personally known to me, as it 
was the proximate cause for my arrival in the Air Force in 
2008.
    And we have made substantial progress in restoring the 
confidence, I think, of our entire DOD and congressional 
leadership in the Air Force's management of this important 
responsibility. It is a number one responsibility for Air Force 
that we take very, very seriously.
    As part of the changes made after this period that you 
referred to earlier in the 2008 and 2009 period, we 
substantially strengthened the inspection process. And what 
you're seeing and hearing reported in the article you 
referenced represents a stronger inspection process that has 
been put in place.
    I'll let the Chief amplify on the particulars at the unit 
involved, but generally the inspection was satisfactory. But it 
was rated marginal in one area in particular. And this is an 
area where the group commander is following up after the 
inspection, to make sure that the officers involved are as 
focused as they need to be on all the details of their mission, 
and that they have the appropriate focus exactly where it needs 
to be.
    So we support commanders following up on inspections with 
those actions that they think are necessary to maintain the 
highest professional standards for this work.
    Senator Durbin. Mr. Secretary, no one's arguing about the 
need for these inspections. Thank goodness they have detected 
the problem.
    The obvious question is: Why was there a problem at this 
high level of responsibility within the Air Force? Let me say 
that this stripping of 17 launch officers is unprecedented. In 
addition to the 17, possible disciplinary action is pending 
against one other officer at Minot who investigators found had 
purposely broken a missile-safety rule in an unspecified act 
that could have compromised the secret codes that enabled the 
launching of missiles, which stand on high alert in these 
underground silos.
    Now the officials went on to say there was no compromise of 
missile safety or security. However, that really gets to the 
heart of the issue, the codes that are involved. The obvious 
question is: Was this a breakdown in initial command, in terms 
of supervising these individuals, training them, making certain 
that they were ready to accept this awesome responsibility?
    Mr. Donley. First of all, we need to remember that these 
are lieutenants, by and large. Some of them can be new to the 
Air Force. They're within their first few years. So the 
training process that we have for the nuclear mission has the 
highest standards, but needs to be reinforced continually, 
every day, every week, every month throughout the year, as 
there are new people coming in to the system.
    So the command responsibility to maintain visibility on 
this and to ride herd on young officers with this awesome 
responsibility is something that we support. And in this 
instance, the commander stepped in and said these people need 
refresher training. So he took them offline to do that. And 
that is an appropriate command response.
    I'll let the Chief add, if he----
    Senator Durbin. Well, Mr. Secretary, I've run out of time 
here. I hope there will be some follow-up questions.
    It is cold comfort to hear these are lieutenants, and they 
may have been new to the job. When I consider this 
responsibility, that is as troubling as the disclosures that we 
found.
    I will recognize Senator Cochran and then Senator Mikulski.
    Senator Cochran. Mr. Chairman, my question has to do with 
the level of funding that is being considered by the committee 
for the Air Force.
    What would you say is among the important consequences of 
reduced funding from what you have requested to what this 
committee may do in terms of reductions in the levels for the 
next fiscal year?

                     AIR FORCE READINESS CHALLENGES

    Mr. Donley. Senator Cochran, I tried to highlight our 
serious concern with the readiness situation of the Air Force 
now. It has been a problem for several years. We've been trying 
to dig out, get back to full-spectrum readiness.
    So the stand-down of flying units this year will likely 
have impacts in fiscal year 2014 as well. If funding is reduced 
for fiscal year 2014, we run the risk of having to continue 
severe restrictions on flying hours into the next fiscal year, 
and this impairs the Air Force readiness beyond acceptable 
levels, in my view. In my view, we're already past those 
acceptable levels, so we need to be investing resources to gain 
back that readiness, not putting it in further jeopardy.
    I'd also note, as I tried to explain in the reference to 
modernization, that there needs to be some continuing growth in 
Air Force modernization going forward. The average age of our 
fleet is way above what it should be, and we need the resources 
to modernize the Air Force.
    For example, in the Budget Control Act, if it stands as is 
and there is an additional $500 billion reduction on top of the 
$487 billion, which the Department has already planned for, 
that will put at serious risk the modernization of the Air 
Force. And you will not have, potentially, the capabilities 
you'll want this Air Force to have 10 years from now.
    Senator Cochran. Could the reductions in funding, if the 
committee approves them, have effect on morale of those who are 
serving in the Air Force, officers and enlisted as well?
    Mr. Donley. I'd let the Chief speak to this as well, but I 
do think it has an impact. Our pilots come into the Air Force 
to fly. They're trained to fly. And when we prevent or impair 
airmen from successfully completing their mission, from doing 
the training, from operating the equipment we have trained them 
to operate, then that does cause morale issues in our force.
    Senator Cochran. General, what is your impression of the 
status of morale now? And with the things like sequester, 
people are trying to figure out what the heck is that, who 
thought that up. Is this having a negative effect, too, on 
morale?
    General Welsh. Vice Chairman, I would tell you that every 
group I have visited with in the Air Force since I've been in 
this job, the first question has been about sequestration. 
Sometimes, it's from two-stripers, sometimes it's from 
colonels. Everybody is thinking about it, wondering about it, 
and trying to figure out what it means to us in the future, and 
what it means to them specifically in their unit and their 
mission area.
    To amplify what the Secretary said, pilots who sit aren't 
happy. They will look for other options over time if this 
continues too long. Civilians who are looking at losing pay on 
furloughs are not happy. That impact may be more immediate, 
even than the uniformed impact.
    And then airmen who take great pride in what they do and 
how well they do it, if they can't train to be the best in the 
world at what they do, they won't be happy over time.
    Mostly the arbitrary, sudden nature of the mechanism of 
sequestration has caused the immediate problem. Over time, we 
have to figure out a way to plan to a known number, so that we 
can set expectations within the force or this will continue to 
be an impact on morale.
    Senator Cochran. Thank you.
    Senator Durbin. Senator Mikulski.
    Chairwoman Mikulski. Thank you, Mr. Chairman.
    Mr. Secretary, General, first of all, I do want to 
acknowledge your service and the service of the men and women 
who serve. My intent in coming here today was exactly to talk 
about sequester and its ongoing impact on our United States 
military, the Air Force, particularly.
    We both take an oath to defend the Constitution and our 
country. Sequester is self-inflicted damage. This is not 
something that somebody is doing to us. This is what we're 
doing to ourselves.
    And my concern, and I hope we answer it in a variety of 
ways through all the questions, will be, we have the fiscal 
2014 request that I know you've worked assiduously on, and then 
you have sequester. But are we always going to be catching up 
to use fiscal 2014 to plug the hole of sequester? Because as we 
know, gentlemen, sequester is for 10 years. It's not for 10 
minutes or 10 weeks or for 10 months. It's every year for 10 
years.
    So I'm sure you could tell us about the corrosive effect 
that it will have on morale and military. And I would hope, in 
the course of speaking, that our job has to be not who caused 
it, but how we can solve it. And I hope we can come together to 
do that.

                    SEXUAL ASSAULT IN THE AIR FORCE

    But I must raise the issue of sexual assault.
    So I hope we talk about it, and I want to know that both 
with our subcommittee chairman, and Senator Cochran, Senator 
Shelby and I, we want to do something, working with our Budget 
Committee, if in fact we could cancel sequester. My idea is not 
how to give you flexibility. I mean, I'm ready to do that in 
any way I can, in any way that there would be bipartisan 
support to do it. But I'd like to cancel it, and I'd like to 
cancel it not only for this year, but for the next 10, which 
requires us coming together. And it's our job not to 
continually self-inflict the damage on our country, its 
readiness, and its economy.
    But let's go to the sexual assault. General Welsh, you say, 
and I believe you, sir, you're a man of honor, but what are we 
going to do about the culture?
    In the testimony of the Secretary on page 22, it's a very 
nice and comprehensive description of response. We hear about 
the number of lawyers you have, the hotlines. And I think 
that's good, but what I'm looking for is how do we prevent 
sexual assault.
    How do we get accurate reporting of sexual assault in a 
culture that seems to be persistent over a number of years? 
What are you doing about that aspect?
    And I'd like to hear your thoughts, your recommendations, 
and, again, how working with the authorizers and ourselves, we 
can really change this.
    General Welsh. Madam Chairwoman, thank you, first of all, 
for your passion on the topic and the passion of all the 
members of this committee.
    We need everybody's help to figure this out. The first word 
I used to describe this in this job was that it's a cancer. My 
position hasn't changed.
    We have done a lot of things in the United States military 
in general, and in the Air Force in particular, over the last 
several years to try and get at the problem.
    We haven't found the game-changers yet. Clearly, we haven't 
found them. We have got to keep looking.
    In the area of prevention, this is probably our weakest 
area. We have no way of screening predatory behavior yet. We 
have to continue to look for that, and we need help from 
outside the military to do that. We can screen for many things. 
We can't screen for that.
    We also can't screen for the stupidity that turns into 
criminal activity and behavior. We have to figure out how to 
change the way, as people come into the military, they view 
each other and they view the environment they operate in. If 
you just leave sexual assault out of the discussion for a 
minute, the ideas of respect, inclusion, diversity, all those 
things come together if we can train it in and make it very 
clear that there is a culture of those three things in our 
military, the attitude changes. The way we treat each other 
changes.
    The things we do when we're dealing with each other, 
whether it's at work or on the weekend, will change. We have to 
work that angle of this.
    Another part of prevention is making sure there is a clear 
deterrent to committing the crime. One of the benefits we have 
in the Department is we have a legal system that we can use to 
do that. One of the problems we have with that is we have to 
make it very clear that we are willing to prosecute.

                         COMMANDER INVOLVEMENT

    And so, one of the things we have tried very hard to do is 
ensure our commanders at every level understand the law 
clearly, their options under the law, and what those options 
will be in any given case. Our referral rate for sexual assault 
cases over the first quarter of fiscal year 2013 is higher than 
it was for the entire year of fiscal year 2011, as an example.
    So commanders are listening. They're taking this seriously. 
We'll see what that turns into in terms of prosecution becoming 
conviction, and what that means in terms of deterrence over 
time. I don't know the answer. I don't know if it will have a 
major impact, but we have to continue in this direction.
    The penalties that are presented under the courts that 
consider sexual assault cases are another thing we have to 
track carefully and make sure we're sending a clear message. 
There's a fine line, as you know, because many of you are 
legally trained, between directing activity that influences 
courts and crossing a line into undue command influence on 
courts. And so we're trying to walk that line very carefully. 
Suggestions on how to better do that are always welcome.
    We have changed the way we do investigations for sexual 
assault. We now have a series of investigators trained 
alongside their JAG counterparts in a new Office of Special 
Investigations (OSI) course modeled on the Army's CDI 
investigation course that was built and curriculum drafted by 
outside experts to change the way we actually do 
investigations, questioning of victims, et cetera.
    We actually have dedicated prosecutors now who do this. We 
have for some period of time. Now they're very clearly 
identified to every commander.
    In the victim care arena, we believe maybe the first game-
changing thing we found, one of that collection of things we 
need to incorporate, is the special victims counsel program. 
The initial returns on the special victims counsel program lead 
us to believe that victims are very happy with the legal advice 
they get from the time they're assigned to the time they 
complete their legal proceedings.
    We now have 265 victims from the last year assigned to 
special victims counsel. That person's job is to represent that 
victim and guide them through the legal morass that goes along 
with prosecution of these cases.
    It's intimidating. It's scary. And if you don't understand 
the law, it is completely, completely baffling.
    One of the big statistics I look at is how many cases of 
people who come forward with an unrestricted report that we 
start to investigate quit cooperating in that investigation 
before it gets to a prosecution phase.
    If you assume that that's because, well, they weren't 
really violated in the first place, that would be a horrible 
assumption. The reason they quit participating is because the 
process is so onerous, and it brings the trauma back into their 
mind daily as they go through multiple layers of questioning 
and consideration.

                        SPECIAL VICTIMS COUNSEL

    The special victims counsels have helped with that. 
Typically, it's 30 percent, as I mentioned, of our victims who 
won't continue through prosecution, even after making an 
unrestricted report. So far, of the 265 assigned special 
victims counsels, two have done that. That's a great trend. We 
must now continue it.
    One of the other problems we have is that we have never had 
people who make restricted reports initially change from a 
restricted to unrestricted at a very high rate, so that we can 
investigate and potentially prosecute those cases. About 17 
percent of our reportees in the past have changed from a 
restricted mode to an unrestricted.
    Of the victims who have special victims counsel assigned, 
that number is tracking at 55 percent right now. And it's 
rising slowly as confidence grows. We have to continue that 
trend.
    So we think special victims counsel will help over time. 
And we think the results of the pilot program we're doing here 
will demonstrate that.
    Chairwoman Mikulski. Well, General, I'm not going to take 
the time--first of all, the chairman and the committee's been 
very gracious, letting me go first. I know that others will 
follow up.
    But here's my take on it, first of all, when you talk 
about--I think the Air Force and the military need a lot of new 
thinking on this topic, and also use the best of other thinking 
from other disciplines.

                       SEXUAL ASSAULT PREVENTION

    So let's go to the issue of prevention. Number one, it's 
not like you're screening for a genetic defect here, okay? So 
what we do know is that when we're talking about sexual 
assault, we know number one it's a continuum. Number two, that 
you need to be able to be looking at where do these occur. You 
need the best kind of analysis that we use, both for crime 
statistics and also epidemiology.
    Is this occurring on bases? That's one kind of situation 
and a different set of interventions. Is it occurring during 
combat situations or on bases? That's a different kind of 
situation, and you need different interventions for different 
things.
    You need new thinking. You need to go to the public health 
community. You need to go to these communities to know how 
they've dealt with it. Where is alcohol involved?
    But also, I do believe you have to go to your leadership 
corps. It starts at the Air Force Academy, the kind of training 
that your Air Force uses. It has to go to Reserve Officers 
Training Corps (ROTC) training. It's got to start earlier, 
because if your officer corps is part of the problem, and it 
doesn't maintain the good order, it's there.
    I don't want to turn this into a hearing on sexual assault. 
I would like to talk with you and work with you more about 
this. I know that others do and the authorizers do, but it's 
new thinking. And it's not actually new thinking. It's very 
much in the civilian domain.
    We have now, because of the era that Senator Collins and 
Senator Murray and the good men of this committee would be 
familiar with, we have now 40 years of history of how to 
address the issue of rape. What are the best tools of 
intervention? What are the triggers that occur? Where do we 
look at other places where men and women are close together?
    We have bodies of knowledge. It's available to the 
military. Let's work together and find this.
    But it's prevention, intervention, enforcement, and 
prosecution, I think are in your pillars.
    General Welsh. Madam Chairwoman, thank you, and I would 
love to come talk to you about everything we are doing and have 
suggestions on what we can do more.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                          SPACE LAUNCH SYSTEM

    Secretary Donley, in the 2013 Defense Appropriations 
Committee report, the committee included, among other things, a 
provision that requires the Department of Defense to complete a 
report to examine the potential national security uses for the 
space-launch system we call ``SLS.''
    Well, it's my understanding, Mr. Secretary, that the report 
will not be completed until the end of this year. Do you have 
any thoughts on how the SLS and its large payload capacity 
could be used to support the Air Force space mission?
    Mr. Donley. As you referred to, Senator, that report is not 
yet completed. But just to provide sort of an initial take on 
this, the space launch system that's being looked at by NASA 
and others provides a heavy-lift capability that is beyond the 
requirements of the Department of Defense at this time. We see 
no requirement for that at this point and believe our current 
heavy-lift capabilities can be provided with existing systems, 
including the EELV, so SLS looks to be beyond DOD's 
requirements.
    Senator Shelby. But you don't know whether you could use it 
at this point or not or you may in the future, because this 
report is not complete, is it?
    Mr. Donley. Well, the report needs to be completed, but 
that's in our initial take.

          APPLICATION SOFTWARE ASSURANCE CENTER FOR EXCELLENCE

    Senator Shelby. Mr. Secretary, the Application Software 
Assurance Center for Excellence, you're familiar with that? In 
2007, the Air Force established the Application Software 
Assurance Center of Excellence at Gunter Air Force Base with 
the objective, as I understood it, of identifying and 
correcting vulnerabilities in our national security software 
system.
    To date, it's my understanding that this center of 
excellence has scanned over 125 million lines of code and 
proven a very valuable resource in strengthening the software 
against cyberattacks, which we're all concerned about.
    Will the Air Force continue to place a priority in 
leveraging investments such as this in the future to fight 
cyberintrusions and so forth?
    Mr. Donley. Senator, this is a very important part of what 
we do to protect our networks and provide information assurance 
that the information that moves through our networks is not 
corrupted from the outside or even from, potentially, from the 
inside.
    So the center of excellence, to which you referred, is 
providing important service to the Air Force.
    Senator Shelby. Thank you.
    General Welsh, I have one question for you, if I could. I 
think this was alluded to. You know the future training planes 
and so forth, without a viable undergraduate pilot training 
program, a pipeline, the Nation's most capable aircraft might 
sit on the ramp somewhere without the right pilots.
    Could you provide this committee your plans, as the chief 
of staff of the Air Force, to replace the aging T-38 aircraft 
with a modern aircraft capable of training our next generation 
of combat pilots? And, if so, where are we on that? And how 
important is that?

                            T-38 REPLACEMENT

    General Welsh. Well, Senator, it's critical. It's part of 
the fabric of the Air Force.
    Senator Shelby. That's exactly--it goes right to the 
essentials, doesn't it?
    General Welsh. Yes, sir. The T-38 replacement is kind of 
like the tide. It's coming. We just have to figure out when. 
Right now, the problem is finding the funding based on other 
priorities.
    The T-38 is viable. The airplane is well-suited to the 
mission. And we believe we can keep it that way through the 
late 2020s if we had to.
    We're looking right now at an option for initial capability 
of a new system in fiscal year 2023 or 2024.
    Senator Shelby. But that's a priority for you for the 
future, isn't it?
    General Welsh. Yes, sir, it is, and we revisit this every 
year to see how we can get it done sooner.
    Senator Shelby. On some of the other questions, I want to 
associate myself with Senator Durbin and also Senator Mikulski 
in what's been going on in the Air Force.
    I know this is serious stuff. And you've got to get to the 
bottom of it. And you've got to prevent it as much as you can. 
And you've got to punish people who do it.

                MINOT AFB MISSILE COMMANDER INVOLVEMENT

    General Welsh. Senator, thank you. If I could make one 
comment on that, back to the missile incident, just a brief bit 
of context.
    The inspection that was conducted actually has 22 graded 
areas. The wing was rated excellent in 14 of those 22 and 
satisfactory in all but one of the others. That one was in crew 
operations. They received a marginal rating, which is a passing 
score, but clearly a flag to the leadership of the wing.
    As a result of that, the group commander, the wing 
commander, who are both excellent officers, by the way, and 
excellent commanders and doing exactly what I expect them to 
do, they followed up with additional testing, additional 
procedures.
    Senator Shelby. You talking about Colonel Vercher?
    General Welsh. I'm talking about Colonel Rob Vercher, yes, 
sir.
    To make sure that they didn't have an issue they needed to 
deal with aggressively. And, as a result of that review, they 
decided that there was more of an attitude problem than a 
proficiency problem. And they are not willing to accept that, 
which is what I pay them for.
    I believe this is the kind of commander intervention that 
prevents the incidents that occurred in 2007. They took very 
aggressive action early to make sure that there was no question 
in the minds of their crew force that marginal behavior or, 
sort of satisfactory just above the line was not acceptable.
    Now, there's nothing good about the incident, Chairwoman. 
I'm not saying that. I'm just saying, I like the way they 
responded. I wished they'd used different language in the email 
they sent. The word ``rot'' didn't excite me, but it got my 
attention.
    I don't believe that that's the problem. I don't believe we 
have a nuclear surety risk at Minot Air Force Base. I believe 
we have commanders who are taking very aggressive action to 
ensure that never occurs.
    And in that respect, this is a good thing. The idea that we 
have people not performing to the standard we expect will never 
be good, and we won't tolerate it.
    Senator Shelby. But you're basically saying that the 
commander in this case, Colonel Vercher, at the top, was doing 
the proper thing in getting to it and following up on it and 
trying to correct it, right?
    General Welsh. Yes, sir, that's exactly what I'm saying.
    Senator Shelby. Thank you.
    Senator Durbin. Senator Murray.
    Senator Murray. Thank you both very much.
    Before I go to my questions, I just want to express the 
sorrow of my State in the loss of a KC-135 last weekend in 
Kyrgyzstan. We had Captain Mark Voss, Captain Tori Pinckney, 
and Technical Sergeant Tre Mackey, who were great airmen. And 
the Fairchild Air Force Base is really grieving the loss of 
those soldiers.
    And I think it reminds all of us how much these young men 
and women give to our country in defending it. And our heart 
goes out to them, and I know all of you feel the same.
    Mr. Donley. Thank you, ma'am.

         KC-46A PREFERRED AND REASONABLE ALTERNATE ANNOUNCEMENT

    Senator Murray. General Welsh, I also want to thank you for 
the professional and efficient manner in which the Air Force is 
conducting the selection process on the KC-46A bases. I know 
they're doing a really great job. We look forward to a decision 
soon.
    It's a very important one for our State, and I think we 
offer a great place. I just wanted to put in a plug. And I hope 
you're going to be announcing a decision soon on those.
    General Welsh. Yes, ma'am, we expect it later this month.
    Senator Murray. Great.
    I think, like all of us, there is so much we need to 
discuss. Certainly, sequestration is eating at the hearts of 
all of us.
    I adamantly believe it's the wrong policy, wrong time. It 
needs to be replaced. We need to be doing our job here. And I 
know the impact on that.
    I know the many, many issues facing all of you. And I know 
the pride of many Air Force men. I'm heading home this weekend 
to bury my family's favorite uncle in Washington State. He was 
a colonel in the Air Force. He flew into Normandy, and we have 
pictures from his Brownie camera flying in that I'm pretty sure 
are unique. He flew in Vietnam.
    He's going to be buried in his full dress uniform. And 
we're all very, very proud of him and his service. And I know 
he is very proud of the Air Force men and women.
    So, General, I can see in your eyes, talking about the 
issues we have to talk today, it's not one that you want to see 
the Air Force being looked at, as well as any of us who have 
such pride of our family members who serve.

                   COMBATING MILITARY SEXUAL ASSAULT

    But I think it is imperative that we really get to the 
bottom of the sexual assault issue. Senator Ayotte and I have 
introduced legislation, the Combating Military Sexual Assault 
Act. I think it's extremely important.
    You've asked for our help. We ask for your help in getting 
this done to do the prevention that you talked about. But also 
I think the culture that you talk about needs to change. The 
chain of command is an issue. We need to understand how to 
address that.
    The fact that the SAPRO report that was released yesterday 
says that 62 percent of servicemembers who report sexual 
assaults are retaliated against is really disconcerting, 
because if people are retaliated against and that fear of 
retaliation, we will never be able to stop this.
    So can you please address that issue and talk to us about 
how we need to make sure that the chain of command issue is not 
preventing these people from really being protected from ever 
having someone go after them if they commit one of these 
heinous acts.
    General Welsh. Thank you, Senator. I'd be happy to address 
this.
    First of all, the term ``chain of command'' issue is a huge 
term, as you well know. The view from a victim is very 
different than the view of a nonvictim within the Air Force.
    As an example, only 16 percent of our victims report within 
the Air Force, based on our survey data, when they are sexually 
assaulted. The latest sensing poll we did in U.S. Air Forces, 
Europe shows that--a small sample, but of about 190 from six 
different wings, 64 percent said they would report. But the 
reality is, when they become a victim, they don't.
    And so something changes. Their faith in the system. Their 
view of what has happened. Their concern about everything 
related to the crime and what happens after the crime. I don't 
know exactly what it is.
    But there are a number of studies that we can look at and 
have looked at to help us try to understand that dynamic.
    The thing that's different that we have to change in the 
way we do business--and I think, culturally, we have a model. 
We were talking about the nuclear business. We have a 100 
percent expectation that it will always be done exactly the 
right way.
    In the sexual assault chain, from incident to victim to 
reporting to victim care, if anything goes wrong--it could be 
an example of a young lady I have talked to who was in an 
emergency room with everybody trying to take care of her the 
right way and a medical tech came out and said, ``Okay, who was 
the sexual assault victim?'' out loud in a hospital emergency 
room. That crushed her, understandably, and will lead her to 
always tell people the system fails.
    So we have to have this 100 percent expectation----
    Senator Murray. I understand that there are all kinds--this 
is a challenging issue. But the issue in the fact that 62 
percent of the sexual assault victims were retaliated against 
means that, when they said something, their chain of command 
officer made sure that they paid the price. That's just wrong.
    General Welsh. Senator, we have to investigate that 
extensively.
    I will tell you, I'm not sure what the statistic exactly 
means, and we need to find out. Clearly, we need to understand 
that number.
    One of the things that we're trying to do internal to the 
Air Force is change our organizational structure. The Secretary 
has asked us to come give him different ideas for how we 
organize with the intent being to connect better to the outside 
community, aggressively connect, which we've done, but not 
enough, to get new ideas.
    The problem is the same outside the military. The solutions 
will be the same. And we'll just have to adjust them to inside 
our community.
    But we have to work with the Congress. We have to work with 
the experts in the community.
    Senator Murray. Well, I would like you to look at Senator 
Ayotte's and my legislation. We're going to be pushing it here 
in Congress.
    We believe that chain of command needs to change, so that 
someone can file a claim and not be fearful of being demoted, 
losing their job, not getting a good assignment, all the things 
that goes along with that. And that clearly is a problem in the 
Air Force right now.
    Obviously, my time is up, and I want you to know we want to 
work with you on this. We don't want to be sitting here 20 
years from now with the same statistics in front of us.
    General Welsh. Right. Thank you, Senator.
    Senator Murray. Thank you.
    Senator Durbin. Senator Collins.
    Senator Collins. You were first, weren't you?
    Senator Durbin. Senator Blunt.
    Senator Blunt. Do you have time?
    Senator Collins. Yes, go ahead.
    Senator Blunt. Thank you, Chairman.
    Well, General Welsh and Secretary, obviously, everybody is 
appropriately outraged and concerned about the topic of sexual 
assault.
    We had a hearing in the full committee not too long ago, 
and victim after victim testified. I think virtually all of 
them had left the military shortly after this occurred.
    And the reporting process, the pressure not to impact 
somebody's career who has been the assaulter is something that, 
obviously, there's appropriate concern about, but I think 
appropriate outrage about.
    My colleague Senator McCaskill has been very vigorous on 
this, and I am proud of what she has been able to accomplish by 
just sticking with this, as others have. And I think you're 
hearing that and hearing that well.
    I want to talk a little bit about how ready we are, about 
equipment. Am I right, General, of the new equipment out there, 
the next generation bomber, is that the one piece of major 
equipment that you all are focused on now at the top of a new 
equipment list?

                  AIR FORCE TOP MODERNIZATION PROGRAMS

    General Welsh. Sir, we really have three programs that are 
top of our modernization list. The lead one, the priority, is 
the KC-46 tanker. That puts global in everything we do. We have 
to modernize our tanker fleet.
    The second one is the F-35. We have committed to the F-35 
program because we need the airplane. A very expensive program, 
we have to understand costs, both production costs and 
operating costs. I think we're getting to a point in production 
costs where we do understand it and the company can produce an 
airplane for a known cost.
    The airplane is flying. The performance of the airplane to 
date has been good. The crews who are flying it tell us it 
performs as advertised.
    We have a lot of work to do, but we're on a good track of 
very stable, steady progress over the last 2 years.
    And the third is a long-range strike bomber, which we 
believe is essential to the Nation's options in the future. 
That program is also on track. No impact to it from 
sequestration.
    Senator Blunt. And this would be the stealth bomber, the 
new version of the stealth bomber?
    General Welsh. Yes, Senator.
    Senator Blunt. And how long do we think the stealth bombers 
that we're using, like the ones that are at Whiteman Air Force 
Base, the B-52s and the B-2s, what do we see as the life of 
those? And is the life of those impacted by the budget cuts 
that you're dealing with right now?
    General Welsh. Senator, the modernization programs that 
we're doing across our fleet are things that the Secretary has 
asked us to do a review on and make sure that, as we look at 
lower top-lines for the next 9 years, as Chairwoman Mikulski 
mentioned, that we take a very clear look at what is absolutely 
mandatory for us to continue.
    But our programs that we have in place for the B-52 will 
upgrade the B-52 to operate for another 20 to 30 years 
successfully. The B-2 we believe will operate well into the 
2030s successfully, maybe 2040. And then the transition from 
the B-52 to the new long-range strike bomber would occur in the 
late 2020s and 2030s.
    Senator Blunt. And the new bomber, just the force 
projection, the ability that this gives us in the Middle East 
and other places, is why it's so critical as an addition to 
what you're doing?
    General Welsh. Sir, as part of the nuclear triad, one of 
the benefits of the air leg is it gives you flexibility. It 
gives you penetration capability to ranges you can't get with 
anything other than an ICBM or a submarine launched ballistic 
missile, both of which are very useful, but also cause problems 
operationally in certain scenarios.
    It gives the Nation another option. It gives us access 
because of its stealth capability, its range. Also, it has the 
ability to penetrate better in advancing air defense systems 
around the world.
    Senator Blunt. Secretary Donley, for most of the time 
you've been Secretary, you've been dealing with the continuing 
resolution instead of an updated set of priorities. We were 
able to bring both defense and MILCON to today's priorities in 
March. Do you want to talk a little bit about how important it 
is that we now make that the ongoing pattern of every year 
looking at the budget and not just saying we're going to give 
you what we gave you last year?

         FISCAL UNCERTAINTY AND NEED TO RETURN TO REGULAR ORDER

    Mr. Donley. Well, as I indicated in my testimony, sir, we 
think a return to regular order is much needed. And I think, 
actually, as the Congress and especially this committee looks 
at sort of out-year appropriations, what the defense leadership 
is looking for most intently is stability.
    We need time. We understand that defense resources are 
likely to come down over the next decade, but we do need the 
Congress to sort of settle on what the numbers are. And we need 
time to plan for that to execute it properly. I think that's 
the main concern of the defense leadership.
    With whatever resources you provide, we guarantee you we'll 
provide you the best military available with that level of 
resources. That's what we do, and the Department of Defense and 
DOD leadership will get that done.
    The issue is, we're not sure what the numbers are. And to 
be making decisions year after year, and sometimes, as in 
fiscal year 2013, months at a time or weeks at a time, is not 
efficient for the Department. And it prevents us, actually, 
from making some strategic decisions, which we would like to 
make if we understood where the longer term intent was from the 
Congress, and we had more stability in planning. If we had more 
stability, we could make smart decisions up front that would 
hold us in good stead for 5 or 10 years down the line.
    Without that stability, with that overhanging uncertainty, 
we're making short-term decisions that last only months or 
perhaps a year at most. So we'd like to get out of that pattern 
and get some strategic decisionmaking in place.
    Senator Blunt. I know, again, on the authorizing committee, 
every single leader that came in from the military, including 
General Welsh, said that nobody thought sequestration was a 
good thing. Everybody thought it was a problem.
    But at some level, everybody said that the continuing 
resolution was an equally big problem, almost as big a problem, 
or--Admiral McRaven said for him a bigger problem.
    So solving that part of this I think does matter a lot, and 
I think the committee has shown a commitment to do that, and 
hopefully we'll maintain that.
    Thank you, Chairman.
    Senator Durbin. Senator Johnson.
    Senator Johnson. Secretary Donley and General Welsh, 
welcome to the hearing, and thank you for being here today.
    Before I begin my questions, I want to echo the remarks of 
my colleagues on the problem of military sexual assault.
    I was glad to hear last week that the Air Force would 
resume flying B-1 training missions at Ellsworth Air Force Base 
on a limited basis. This change of course came after an April 
12th announcement that all of the base's local B-1s would be 
grounded. I'm concerned, though, that given the financial 
constraints that the Air Force is experiencing, this resumption 
may be only temporary.

                         B-1 TRAINING MISSIONS

    Will the Air Force be able to continue B-1 training 
missions through the rest of the fiscal year? And will 
sequestration impact the Air Force's plans for continuous 
bomber presence in the Asia-Pacific region?
    Secretary Donley.
    Mr. Donley. Sir, I'll ask the Chief to amplify on this.
    But we have been making short-term decisions based on the 
availability of resources on which units would get stood-down, 
which ones would have only minimum flying hours. And we 
continue to update that list in response to the requirements 
laid out by the combatant commanders.
    So the Chief's very much involved, with the Joint Chiefs of 
Staff, in prioritizing this work. And it's very much dependent 
on the funding that's available and will be, going forward, 
dependent on the reprogramming to which I referred, in which 
instance we are trying to return some units to fully mission-
capable.
    But I'll let the Chief amplify on the specifics of the 
bomber force here.
    General Welsh. Senator, we are aggressively managing, down 
to the unit level now, funding day to day, week to week. Every 
time we have the ability to reprogram funding, for example, we 
will move money into readiness. And so that's what happened in 
this case.
    The reprogramming authority approved by the Congress, as we 
have the pending request from the Department of Defense to 
execute that authority, part of that will include funding to 
allow the four airplanes from a squadron to start flying again 
so that the Nation has a contingency response capability.
    Where we stand right now is the units we stood-down were 
units that were not either deployed to Afghanistan or to the 
Pacific, or scheduled to deploy to Afghanistan or the Pacific, 
or were not involved in the nuclear mission.
    And so if we want the ability to respond to any future 
contingency--pick one of the ones from the paper--we need to 
try and get our Air Force back up on the steps so we're more 
able to respond quickly without the risk of sending untrained 
crews.
    That's what this is about. The longer this continues, the 
harder that will get to be and the bigger the impact on our 
ability to provide options to the Secretary of Defense, the 
President, and the Congress.

                     POWDER RIVER TRAINING COMPLEX

    Senator Johnson. General Welsh, last year at this hearing, 
I asked General Schwartz about the status of the Powder River 
Training Complex, and he assured me that a record of decision 
was imminent. Unfortunately, this has still not occurred.
    Can you provide me with an update on the current status and 
the projected timeline?
    General Welsh. Senator, I'm sorry, I didn't refer to last 
year's testimony to read specifically what was behind that 
comment.
    The current record of decision planning for us is for March 
2014 for the Air Force to release its decision. It will then go 
to the Federal Aviation Administration (FAA). The FAA will have 
to release their own independent record of decision and the 
analysis that goes with it. And we'll be restricted from using 
that airspace until that action is complete.
    So March 2014 is when we expect to go to the Secretary and 
come forward with the record of decision from the Air Force 
perspective.
    Senator Johnson. Mr. Secretary, according to your 
testimony, the fiscal year 2014 President's budget does not 
account for the cost of mitigating the impacts on readiness 
brought on by sequestration. Given that units are already being 
grounded, will you have the resources in fiscal year 2014 to 
bring our pilots back to the state of readiness?
    Mr. Donley. Senator, as I indicated, I'm concerned about 
our ability to do that in fiscal year 2014. There's no doubt in 
my mind at this point that we will enter fiscal year 2014 at a 
lower readiness posture than we thought we would, due to 
sequestration. And our 2014 budget had not accommodated that.
    We had planned for increases in flying hours in fiscal year 
2014, but now we will put those increases in flying hours 
against a lower base of readiness. In other words, we'll have 
makeup work to do to bring these units that have stood-down 
back up to basic military capability, and then to full combat 
mission-ready. That will take additional resources, and it will 
take additional time.
    If the President's budget is not approved, and we face 
another sequestration off of whatever amount is appropriated by 
the Congress for fiscal year 2014--in other words, if the 
President's budget is not approved and then there's 
sequestration on top of that, we'll have even a deeper 
readiness problem to get out of in fiscal 2014.
    Senator Johnson. Thank you.
    Senator Durbin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Welsh, prior to your nomination, we had a lengthy 
discussion, about the issue of sexual assault, in my office. 
And I know from that conversation how seriously you take this 
problem and that you are committed to solving it.
    I would note to my colleagues that there was a huge 
difference between when I first raised this issue publicly at 
an Armed Services Committee meeting in 2004 with General Casey, 
and he was very dismissive of the problem.
    That is not the attitude of General Welsh and, I think, our 
military leaders today.
    And yet, nevertheless, we keep hearing of incident after 
incident. And we don't seem to be making the progress that we 
need to make.
    Ultimately, this is going to affect recruitment. If I were 
a parent with a daughter who is thinking of going into the 
military today, I would think twice about whether the 
environment is safe for her, not from the enemy, but from 
sexual assault from her fellow military members.
    That is just an untenable, unacceptable situation.

            SEXUAL ASSAULT IN THE MILITARY AND LEGAL ISSUES

    Let me ask you one question that I do not understand as I 
review these cases, and that is why are individuals who are 
convicted of sexual assault allowed to stay in the military? 
Why isn't there a policy where they automatically receive a 
dishonorable discharge and are kicked out?
    I don't understand allowing them to serve their time, but 
keeping them in the military.
    If we're really going to send a signal of zero tolerance, 
then we shouldn't be keeping individuals who are convicted of 
sexual assault in the military in any of our branches.
    General Welsh. Senator, I agree with you. There are legal 
issues associated with the Uniform Code of Military Justice 
(UCMJ) which are more difficult to deal with than the policy 
issues associated with the guidance we have on the policy arena 
that the Secretary controls.
    We have very few people convicted of sexual assault in a 
court who actually remain in the military. The court sentences 
don't always include the discharge, but typically they are 
removed from the service another way later, through an 
administrative discharge process.
    This is something that we are discussing, what is the best 
way forward in this area? It's just another example of--it 
doesn't matter how much we care, Senator. You know this. I need 
to do more. The Air Force needs to do more. And every single 
victim is just a gut-wrenching reminder of that.
    Senator Collins. Well, I would say to you, General, that 
one of the instructors who was convicted in the Lackland 
scandal is staying in the Air Force, according to press 
reports. That was Tech. Sgt. Bobby Bass. And I just don't 
understand that.
    I mean, I think that's got to be an across-the-board 
policy. If you need legislation, I'm willing to step forward 
and draft the legislation.
    But you're not truly sending a signal if someone's allowed 
to stay in the service after a conviction for sexual assault.

                 KC-46A AND THE 101 AIR REFUELING WING

    Let me switch to another issue. During your confirmation 
hearing, we also discussed the strategic basing process for the 
new Air Force tanker, the KC-46A. I must say, although Senator 
Murray and I almost always agree on so many issues, we don't 
agree that the process has been good in this case.
    When I received the scorecard for the Air National Base in 
Bangor, Maine, we identified an error in the evaluation of air 
quality, of all things, that caused the base to earn three 
points less than it deserved. And the 101st Air Refueling Wing 
in Bangor has attempted, unsuccessfully, to have that mistake 
corrected.
    I've attempted. I'm going to be sending another letter to 
you and the Secretary outlining the specific discrepancy. I 
want to be clear that the integrity of this process and the 
acceptance of the decisions made depend on accurate scoring. 
And it also depends upon a scoring process that reflects the 
mission that the KC-46A will perform. And just recently, the 
Air Force delivered a report on this subject to the Armed 
Services Committee in response to concerns that many of us have 
had about the model being used.
    I would ask that you work with me to resolve these 
discrepancies. All of us can accept the final decisions if we 
think the process is fair and accurate. But when we're able to 
identify specific errors made, and the Air Force does not make 
any attempt to correct those errors, it undermines the 
integrity of the entire process.
    So I hope you will agree to work with us.
    Mr. Donley. We'll look at the Bangor numbers again, ma'am, 
just to be sure.
    I would offer that the basing decision involves the first 
three bases. We have 179 tankers. This is less than half of the 
tanker force that's going to be modernized.
    It is not necessarily the end of the world for those bases 
not chosen. They'll continue to operate the KC-135 going 
forward.
    And just for consideration, if we want to modernize the 
tanker force, we're going to have to do more than we're doing 
in the KC-46 program. We have to buy more tankers, and we have 
to buy them faster. So that's one way to get new tankers to 
tanker bases.
    In other words, the bases that are not selected are going 
to continue to fly the KC-135s going forward.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I'd like to start by echoing the concerns and comments that 
so many of my colleagues have made about sexual assault. I used 
to be on the U.S. Air Force Academy's Board of Visitors, and we 
had issues back then. That was 9 or 10 years ago. The fact that 
these issues are persistent and recurring, raises serious 
questions in my mind about the command climate at the U.S. Air 
Force.
    I know that Congress will follow this closely and take 
appropriate steps as we learn more.
    General Welsh, I'd like to start with you. I'd like to 
begin with a letter that you wrote to me on February 11, 2013. 
I've provided that for you, just to refresh your memory. My 
first question, just to make sure, is that your signature on 
the letter?
    General Welsh. Yes, sir. It is.

             AIR FORCE FORCE STRUCTURE CHANGES IN ARKANSAS

    Senator Pryor. Second, I'd like to say that the letter 
outlines four things that are happening in Fort Smith, 
Arkansas, with the 188th Fighter Wing, which is part of the 
Arkansas National Guard.
    First, there's a drawdown of A-10s that will occur there. 
Second, there's an MQ-19 RPA mission that will be ramped up 
there, which I like. Third, there is establishing a 120-person 
targeting unit, which also I like. And, last, there is to be 
some effort to try to continue the funding for crash, fire, and 
rescue services at the Fort Smith Airport. I like that.
    The problem is that when I look at the budget, I see that 
the one thing I don't like, the A-10s going away, is on 
schedule, and the other things either get no funding in the 
President's budget or just a tiny fraction of funding.
    So as we are looking at the drawdown of the A-10s, on page 
2, paragraph 1 of the letter, I think it's the second or maybe 
third sentence. It says, concurrent with the 188th Fighter Wing 
divestiture of the A-10 aircraft, personnel will enter a 24- to 
36-month MQ-19 conversion program to reach initial operational 
capacity.
    And that's a good sentence. I like that sentence. The 
problem is that when you look at the budget and you dig into 
it--and you have to dig so far you have to go to page 21, line 
17, of the Air National Guard O&M Volume 1 Justification (J) 
book. What you see are some numbers there. And your staff tells 
me that the 188th will receive $3 million out of that figure to 
pay for 28 military technicians.
    And that means zero money for manning, for training, and 
equipment in fiscal year 2014.
    So when we see this that says concurrence--concurrent with 
the 188th Fighter Wing divestiture of A-10 aircraft, personnel 
will enter a 24- to 36-month MQ-19 conversion program to reach 
initial operational capacity--I think the first question is, 
with no training, manning, and equipment, what does that mean 
for initial operational capability?
    It looks to me like we're pushing that back at least a 
year, maybe 2 years.
    General Welsh. Senator, I'm familiar with all that you just 
mentioned was the $3 million for the new technicians. Let me go 
get the detailed game plan for this. I don't know exactly what 
it is, and we'll get back to you.
    And you may have more information, but I just don't have 
the details of that conversion plan.
    Senator Pryor. That would be great. I'd like the details on 
that, and I'd like that as quickly as you could get it.
    And then on the next point, we talk about a targeting unit. 
Here we are on page 1, paragraph 3 of this. And basically, 
there's a sentence that says, however, we will internally fund 
the targeting unit for fiscal year 2013 and then initiate a 
program change request to fully fund the targeting unit across 
the FYDP.
    But there is no money for fiscal year 2013, as I 
understand, based on what your staff is telling mine. Is that 
true?
    General Welsh. Senator, again, I have to go find out. I 
don't know the answer to that question.
    Senator Pryor. Well, my understanding is that there's not 
going to be money in fiscal year 2013 to do that, which causes 
me a lot of concern.
    And one thing I'd like to also know is whether you fought 
for money in 2013, whether you requested it, how hard you 
worked it, because what we're getting from your staff is that 
it's just not going to be there.
    So I'll wait to hear what your answers are to those 
questions, but it raises a question with me that I think that 
the Senate would like to know. If it is true that there's no 
money there, and if it is true that the timetable is sliding, 
why would you write a letter to a Senator and not fulfill the 
commitments you made in the letter?
    General Welsh. Senator, that's a fair question. I fully 
intended to meet the intent of this letter. I don't know that 
we aren't meeting the intent of this letter. I'll find that out 
and get back to you.
    But there are an awful lot of things we're not funding in 
2013 and not through our own choice. We've got airplanes that 
aren't flying that are needed to support U.S. decisions around 
the world.
    We have a problem with money in 2013. We're in survival 
mode. I don't think that's a secret to anyone.
    Clearly, we want to fund everything we intended, and 
transitions everywhere. There are a lot of bases affected, sir, 
Active, Reserve, and Guard. A lot of units affected. A lot of 
civilian workforce affected.
    Let me get back to you with the details, but there is no 
evil intent associated with any of this.
    Senator Pryor. Well, it's a little bit to me like when you 
were answering Senator Cochran's questions a few moments ago 
about the sequester and what it does to morale and people 
leaving the service because of their jobs. Basically the 
quality of the job going down. And they're just not happy.
    It seems like, if what I am concerned about is true, that's 
exactly what you're doing to Fort Smith. That's exactly what 
you're doing to the 188th. You're sapping their morale.
    And by the way, all they've ever done is serve the country 
when you called on them to do so. And they've served with 
distinction for a long, long time, but most recently in Iraq 
and Afghanistan.
    And I think you're being very unfair to this community, if 
in fact that's what's going on.
    General Welsh. Senator, if I might, you know this, because 
you met me there. I visited this community and this wing to 
make sure I understand their concerns, their impacts. I talked 
to every member of the unit. I talked to the local community 
leaders.
    Every one of the units affected by the stuff we're doing 
and the cuts related to sequestration has been serving our 
Nation proudly. None of them like it. I don't like it.
    Any help you can provide us in this would be greatly 
appreciated.
    Senator Pryor. I'm not so sure this is about sequestration, 
though. We'll look at it, but we're looking at the fiscal year 
2014 budget, and we're looking at what's going on this year as 
well.
    I'd like for you to follow up with me on that and let me 
know the facts and what you're prepared to do to try to honor 
the intent of that letter that you sent me.
    [The information follows:]
                    Game Plan for 188th Fighter Wing
    On May 23, 2013, the Air Force Deputy Chief of Staff for Strategic 
Plans and Programs, Lt. Gen. Michael Moeller, Director, Air National 
Guard, Lt. Gen. Stanley Clarke, and the Director of Air Force Budget, 
Major General Edward Bolton met with Arkansas Senators Pryor and 
Boozman as well as Representative Womack to discuss the issues related 
to the Ft. Smith, Arkansas conversion from A-10s to MQ-1/9 Remote Split 
Operations and Targeting Units. The Arkansas delegation was satisfied 
with the responses they received. The Air Force has offered a follow-on 
meeting to Senator Pryor's staff to discuss additional details, if 
necessary.

    Senator Pryor. Mr. Chairman, I have other questions, but I 
think I'll reserve those for another round or submit them for 
the record.
    Thank you.
    Senator Durbin. Thanks, Senator Pryor.
    I'm going to try to ask a few questions very quickly, and 
some of them will need follow-up.
    There was a meeting with Secretary of Defense Hagel shortly 
after he was confirmed, and it was at the Pentagon. Senator 
Levin was there, along with ranking members on Appropriations 
and the Armed Services Committee.
    Base closure came up. Senator Levin, who has been a 
supporter of base closure commissions in the past, expressed 
some skepticism. I've been skeptical before him and still 
today.
    Base closure commissions are supposed to take the 
politicians out of the process. I think they've replaced the 
politicians with other politicians.
    I have watched five base closure commissions. What Senator 
Levin asked of the Secretary, I want to ask specifically when 
it comes to the Air Force, since you've endorsed a base closure 
commission again. I want to see actual savings, start to 
finish, when you're closing a place, moving the personnel, 
moving the equipment, reassigning, and then assessing how much 
money you've saved as a result.
    If you'd be kind enough, if you have this available to you, 
to look back at previous base closure commissions and talk 
about the actual savings, net savings, from the closure of 
bases, I'd like to see that if I could.
    Mr. Donley. Sir, I'd be happy to provide that.
    [The information follows:]
             Previous Base Realignment and Closure Savings
    Base realignment and closure (BRAC) savings are substantial and 
allow the Air Force to apply scarce resources to emerging and/or higher 
priority missions. The Air Force continues to realize nearly $2.9 
billion in annual net savings from five previous rounds of BRAC. BRAC 
1988 provides $0.5 billion, BRAC 1991 provides $0.8 billion, BRAC 1993 
provides $0.3 billion, BRAC 1995 provides $0.4 billion and BRAC 2005 
provides $1 billion (difference in total due to rounding).
    BRAC savings are generated primarily in the following categories: 
civilian salaries, military entitlements, base operating support, 
sustainment, recapitalization, mission, and procurement. The savings 
begin to be realized during the first year of implementation, growing 
through the 6-year implementation period, and maximizing the first year 
of post implementation.
    Specific amounts for each closure can be seen in Exhibits BC-02 
contained in the Department of Defense Base Closure Account--Air Force 
Fiscal Year 2014 Budget Estimate Justification Data submitted to 
Congress in April 2013.

    Senator Durbin. Second, I want to discuss the Joint Strike 
Fighter, which we're going to have a separate hearing on. I'm 
troubled when the program executive officer says that 
sustainment costs are the big gorilla and are potentially 
unaffordable in the future.
    When I look at the number of aircraft being requested by 
the Air Force, some 50 aircraft at an expense of $11.4 billion, 
compared to the Navy, 165 aircraft at $17.9 billion, the cost 
per copy is dramatically higher on the Air Force side.
    I'd like to know--if you can respond now, fine--have you 
taken a look at the original goal of the Joint Strike Fighter 
and whether or not there are other ways to meet the needs of 
national security at a lower cost?

                          JOINT STRIKE FIGHTER

    Mr. Donley. Sir, we have looked at alternatives to the 
Joint Strike Fighter, but there really are none that will 
provide the capability that it provides. That's really the 
short answer to that.
    Senator Durbin. I guess my answer gets down to more 
specifics. If we need stealth to knock down the door, we may 
not need the same stealth to maintain operations after the door 
is down. Is that part of the calculation here about the need 
for Joint Strike Fighter?
    Mr. Donley. It is. But I can tell you sort of looking out 
the next 20 years, 25 years, this is going to be a mixed fleet.
    We need to take action to upgrade the F-15s, the F-16s as 
well, because this is going to be a mixed fourth- and fifth-
generation fleet for some time to come until we get way further 
down the line on Joint Strike Fighter production.
    Senator Durbin. Well, I'm going to have a hearing on this 
and maybe invite some additional testimony, and I will maybe 
invite you back, if you're still around. I hope you will be.

               TUITION ASSISTANCE AND FOR-PROFIT SCHOOLS

    I have a concern about for-profit schools. The Defense 
Department spent $660 million on tuition assistance in fiscal 
year 2012. Servicemembers across DOD took almost 900,000 
voluntary education courses, including more than 280,000 by Air 
Force members.
    We know from an investigation by the Senate Health, 
Education, Labor, and Pensions (HELP) Committee that half of 
those funds go to for-profit colleges, some of them deceptively 
named ``American Military University,'' as an example.
    We also know from studies by the Government Accountability 
Office (GAO), National Bureau of Economic Research, and Harvard 
University that students attending for-profit colleges have 
lower success rates than similar students in public and 
nonprofit colleges, including graduation rates, employment 
outcomes, debt levels, and loan default rates.
    When I think that these for-profit schools have now become 
the choice in at least half of the cases for education for our 
members of the military, it troubles me, because the outcomes 
are unacceptable for anyone, let alone members of the military.
    Are you aware of this? And if so, what are you doing about 
it?
    Mr. Donley. We are aware of this, and we would like to work 
with you on how to regulate access to our military members and 
how to certify the credentials of for-profit institutions and 
their ability to provide degrees and the military's support for 
that work.
    We think education is very important for our airmen. We 
incentivize it in a lot of different ways. We've supported it 
through tuition assistance programs as well.
    Our concern on tuition assistance, if I can take a 
variation of your very important point, is that we need to make 
that program sustainable over time.
    It has been growing. We have some 115,000 enrolled in 
tuition assistance programs. We've not been able to budget for 
its full costs, and you'll see some of that in our 
reprogramming actions coming forward.
    So the costs of this program are of concern to us as well.
    Senator Durbin. I agree with you. We have to be thoughtful, 
because we want to provide these opportunities for men and 
women in the military to improve themselves and be ready for 
the day when they may be back in civilian life.
    Mr. Donley. We do.
    Senator Durbin. I am troubled, I am deeply troubled, by the 
thought--and I don't have any specifics in your branch, but I 
do in others--that there is a cozy relationship between the 
for-profit colleges and the military.
    They invite them in, and they're anxious to come to market 
these courses, which are unacceptable in terms of being 
mediocre to poor, if not bad.
    They're wasting their time. They're wasting government 
money. They're wasting the opportunities of their lives on 
these for-profit colleges.
    I'm going to have a hearing on that as well, and I invite 
your participation.
    I think when we start weeding out the waste of money in 
this, there may be more resources available for valuable 
education. Historically, there have been colleges providing 
valuable education to members of the military for decades. I 
think we can continue that tradition.
    I see Senator Coats is here. I will recognize him at this 
point.
    Senator Coats.
    Senator Coats. Yes, thank you Mr. Chairman. I'll be brief. 
I know you've had a long hearing, and I had to duck in and out.
    But I was reading through the posture statement under 
cybercapabilities, and it reminded me of an issue that I've 
been dealing with here. Your Navy counterpart, Admiral 
Greenert, in December 2012, wrote an article entitled, 
``Imminent Domain,'' where he said, ``The electromagnetic 
spectrum cyberenvironment is now so fundamental to military 
operations, and so critical to our national interests, that we 
must start treating it as a warfighting domain on a par with, 
or perhaps even more important than, land, sea, air, and 
space.''
    ``Future wars,'' he said, ``will not be won simply by 
effectively using the electromagnetic spectrum in cyberspace. 
They will be won within that electromagnetic cyberdomain. And 
all of this will require a fresh approach in thinking about 
modern warfare.''
    Given our need for efficiencies in the Department, and the 
resources which have to be very carefully managed to meet our 
budget goals, I'm just wondering what your response to that is? 
And whether or not this opens the opportunity for joint 
efforts, which I think go across all of the services here?

                        ELECTROMAGNETIC SPECTRUM

    We have a center, Naval Army center in Indiana. The primary 
focus on the Navy side is this electromagnetic spectrum and the 
work that goes on there. Admiral Greenert has visited, General 
Amos from the Marine Corps is interested, the Army Secretary 
has visited, and others.
    So I just wanted to bring that to your attention, maybe get 
your response to that? Is this something that we need to, and 
you need to, increasingly put focus and perhaps resources in? 
There's an opportunity, in my opinion, to do this across the 
services.
    Mr. Donley. Sir, there's no doubt in my mind that the 
electromagnetic spectrum is of vital importance to our 
military, and it deserves and gets careful attention from the 
Department of Defense.
    And when necessary, we also work with other national 
agencies that are responsible for managing this, Federal 
Communications Commission (FCC) and others, to make sure DOD 
equities are protected in the spectrum. Electronic warfare is a 
vital part of what we do in the military. Protecting the 
spectrum for communications of all kinds across our military 
range of operations is vital to our work.
    And in some cases where we lose spectrum, it drives costs 
to the Department of Defense, including the United States Air 
Force, when we have to make modifications to aircraft and other 
communications systems to adjust.
    So we're very mindful of the importance of this. And we do 
share and discuss with other branches like the Navy, the Army 
as well, on electronic warfare capabilities. We're 
interdependent in this work, and this is one of the areas that 
we have in common, especially with the Navy, in the air-sea 
battle concept where we both have an interest in this kind of 
work.
    Senator Coats. Right.
    Mr. Donley. But I'll let the Chief amplify, sir, if you'd 
like.
    General Welsh. I completely agree with the Secretary, and 
with John Greenert. Cyber is another domain that gives us 
access to do certain things, whether it's intelligence 
collection, command and control, or actually nonkinetic strike.
    The electromagnetic spectrum, as the joint community sees 
it, gets to be a little bit more specific in terms of mission 
area, although it encompasses everything, as you mentioned. EA-
18Gs, EA-6Bs are absolutely essential to Air Force strike 
capabilities, and we are interconnected with the Navy in a 
major way in this effort.

                         THE F-35 AND THE A-10

    Senator Coats. Second, let me just ask this brief question, 
since the F-35 is a replacement for the A-10, what is your 
expectation relative to modernizing or not modernizing A-10, 
depending on what the rollout schedule is for the F-35?
    Mr. Donley. Again, I'd defer to the Chief for more 
specifics. But in general, as there continues to be pressure on 
Air Force resources and force structure, including the fighter 
force structure going forward, we're likely to favor fighter 
capabilities that involve multi-role capabilities. And in this 
regard, the A-10 offers more specialized capabilities, and in 
this case an older capability that may or may not be with us 
for an extended period of time.
    A-10 provides great air to ground support. They've done 
tremendous work in Iraq and Afghanistan and in other operations 
in close-air support to ground forces.
    But as we go forward, there will be more pressure, I think, 
for multirole capabilities like provided by the Joint Strike 
Fighter?
    But, Chief, if you have any more to add?
    General Welsh. No, sir, I really don't. As the Secretary 
mentioned, we'll have a mixed force for a while. And the A-10 
is uniquely capable at its mission. It just is not as capable 
at multiple other missions. So over time, the intent is to 
replace it with the F-35, because we just can't afford both 
anymore.
    Senator Coats. Thank you, Mr. Chairman.
    Senator Durbin. Senator Cochran.

                             THE F-15 FLEET

    Senator Cochran. Mr. Chairman.
    I wonder if in your consideration of modernization of the 
fleet, you have considered the F-15 fleet as well, and whether 
there are operational benefits that would be derived from 
modernizing the F-15E radar?
    Mr. Donley. Again the Chief is an expert on this, but I did 
mention the importance of continuing to modernize the F-15 
fleet, and both the C/Ds and the E-models as well.
    And across the F-15 fleet, there's over $4 billion across 
the FY DP for F-15 modernization at the current time.
    General Welsh. Senator, my personal opinion is that the 
threat and the way it's growing will require us to change the 
game in the air-to-air combat arena, both air-to-air and air-
to-ground, by about 2025 to 2030.
    All of our modernization efforts on our legacy fleet are 
intended to keep them viable through that timeframe. We will 
eventually get to the point where the data integration 
capabilities of the F-35, the new--I mean really revolutionary 
data integration, information-sharing capabilities they bring 
to the battle space, will be what's required to succeed in some 
mission areas, as the Chairwoman mentioned, to kick down a door 
in a contested environment.
    But we need to continue to modernize the legacy fleet that 
will be around, so that they can operate safely and effectively 
as long as we can extend them, until the F-35 can take over 
that load.
    Senator Cochran. Okay. Thank you.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll just be brief.
    First of all, I want to say again I appreciate, and I think 
the Nation appreciates, the Secretary's service and also 
General Welsh's service to the Nation. We've had a good hearing 
today.
    There are a lot of things we come out of this hearing with 
today. But one, General Welch, that you consistently, I 
believe, were on target on, is the age of so many of our 
weapons systems, the age of our planes. They're not getting 
younger.
    And if we're going to maintain the security of this Nation, 
which is your responsibility and ours, we're going to have to 
continue, aren't we, in the modernization of our planes, our 
Marine needs, our Army needs, our Navy needs?
    Otherwise, people in the world know what we're doing, and 
what our capability is going to be. Maybe today we're fine, but 
we've got to think about tomorrow. And I think some of the 
message today, was about tomorrow, was it not, Mr. Secretary?
    Mr. Donley. Absolutely, sir.
    The modernization of the Air Force is the overarching, 
overhanging problem for our Air Force for the coming decade or 
two.
    Senator Shelby. You agree, General?
    General Welsh. Senator, I do. Whatever size military force, 
the joint force, the Nation decides its needs. It needs to be 
credible, it needs to be capable, and it needs to be 
responsive. I don't believe modernization is optional.
    Senator Shelby. Thank you.
    Thank you.

                      FREQUENCY OF MILITARY MOVES

    Senator Durbin. I'd ask one general question in closing 
here.
    I recently visited a base, and there was a conversation 
about the permanent change-of-station moves and the frequency 
of those change-of-station moves and the cost of those change-
of-station moves, let alone impacts on the military families.
    Is there any thought being given to changing that interval?
    General Welsh. Chairman, yes, there is. And, in fact, we 
have changed it. In 2006, the Air Force changed the policy to 
stabilize assignments at CONUS bases to 4 years minimum, so a 
standard assignment is 4 years.
    We manage that account annually, so this year there is a 
lot of trouble with continuing to fund the normal permanent 
change of station (PCS) rotations. We probably will have to 
stop them at some point during this year and move only the 
required movers, people going to additional training, people 
returning from overseas. Same thing with our civilian workforce 
moves.
    We look at this routinely. We're doing a test program 
overseas in Europe to see if at our larger installations we can 
stabilize overseas tour lengths at a longer period of time as 
well.
    Senator Durbin. So aside from the instances you gave, where 
there's training involved or they're coming back from 
assignments, combat assignments and the like, what has been the 
reaction of the military families to this lengthened stay at 
some of these bases?
    General Welsh. This is not a major discussion topic when I 
visit wings. There aren't a lot of people who bring this up as 
a concern. In fact, there are some people who'll say, I'd like 
to leave. I've been here long enough. I'm looking for a new 
challenge.
    I think the 4-year assignment length for the continental 
United States is about the right length. Much longer than that, 
you run into a separate set of problems from a workforce that 
is not maybe refreshed or energized enough.
    I believe one of the strengths of our system is we do 
refresh it. We bring new views, new ways of doing business to 
organizations over time. And so, I believe that 4 years is 
about right.
    I'm not sure what the boss feels about this one, sir.
    Mr. Donley. I concur that we're at about the right place.

  NUCLEAR INTERCONTINENTAL BALLISTIC MISSILE CAREER FORCE ADVANCEMENT

    Senator Durbin. Let me ask one last question related to 
Minot. One of the critics, a Mr. Blair, who back in the 1970s 
or so was involved in the Air Force had this assignment. He 
said one of the real problems here, and in a way it's a good 
problem, we've not utilized this nuclear command, we've not put 
them into a war-like situation, and thank God that we haven't.
    However, he also suggested that it makes it very difficult 
when those who are assigned there question whether or not this 
is still a path to advancement and improvement in their own 
careers, as he said, in his words, babysitting nuclear 
missiles.
    What is your reaction to that?
    Mr. Donley. Sir, I think the intercontinental ballistic 
missile (ICBM) force, as well as the rest of the nuclear triad, 
is providing deterrence every day. And it underwrites much of 
what we do in our national security enterprise around the 
world.
    This is a very important capability for the country. We 
emphasize its importance to those who have this mission, to 
whom, as you indicated earlier, we give great responsibilities 
and we expect much, very, very high standards.
    So this is the culture that goes with the nuclear 
enterprise that we try to inculcate and sustain among our 
airmen.
    Senator Durbin. Is his point valid, that this is viewed as 
not a path toward promotion and advancement in the Air Force?
    Mr. Donley. I do think that as the Nation looks at ways to 
generate more efficiencies and to adjust force structure across 
the military, and if it sees the national leadership making 
decisions that perhaps reduce the size of the nuclear 
enterprise, some critics or others actually suggesting that 
major pieces of the triad need to go away or should disappear, 
that this does have a corrosive effect on our ability to 
maintain focus on this mission.
    But that's our responsibility to make sure that focus does 
not fall off.
    Senator Durbin. My question is a little different, and that 
is, if you're assigned to one of these positions, is it less 
likely that you're going to advance in the Air Force than a 
flying mission, for example?
    Mr. Donley. Well, I do think, across the enterprise, there 
are positions of responsibility that are available for 
advancement for young officers and NCOs moving through this 
business--missile wings, bomber wings, the nuclear business, in 
general the enterprise, logistical support to the enterprise.
    It is true that in the missile wings that it is a very 
broad and large pyramid at the bottom for the missile crews, 
and they often make career choices which get them in a slightly 
different career path going forward.
    For example, we've had close affinity between the missile 
work and the space field in the past. And that has provided an 
opportunity for missileers to transition into the space 
enterprise as well.
    So we've looked at how to structure those career fields so 
that they're related when they need to be, they're separate 
when they need to be as well.
    Senator Durbin. Senator Shelby.
    Senator Shelby. I want to follow up on Senator Durbin, some 
of his comments here.
    It looks to me like that the command and the people working 
in the nuclear structure, which goes to the heart of part of 
our triad, that that is such an important, responsible, 
accountable job that it would be open--if you had 
responsibility there, and you did a good job--it would be open 
as much as anything for promotion, if not more. And it wouldn't 
be a backwater. It wouldn't be, if you got there, you might 
make lieutenant colonel or colonel, if you were an officer, 
would you go higher.
    Is that what you're getting at? In other words, is it one 
of the places to be? It should be, because of the importance of 
it. That's what I picked up. Is that some of your area?
    You understand what we're getting at, Mr. Secretary?
    Mr. Donley. I do.
    Senator Shelby. In other words, is it a dead-end or is it a 
semi-dead-end? Or is it a great opportunity for, if you do a 
great job, you're recognized and you move up, you know?
    And maybe General Welsh has a comment on that, too.
    Mr. Donley. Yes, I'm very much open to the Chief's insights 
here.
    But there are a number of career fields that go with the 
nuclear enterprise, and this is not dead-end work. There is 
important work across our Air Force that benefits----
    Senator Shelby. It could be some of the most important work 
and the most important jobs you have, I would think, Senator 
Durbin.
    Mr. Donley. It benefits from the high standards and the 
discipline that we apply to the nuclear enterprise and bringing 
that across our Air Force is good for us.
    Senator Shelby. General Welsh.
    General Welsh. Senator, I think anytime you talk to 
somebody who's an advocate for the nuclear business, as Mr. 
Blair is, although I don't know him personally, I have read 
things he's written in the past. They're very insightful, very 
knowledgeable. Obviously, he has great experience in this 
arena.
    They tend to talk to the people who are doing the business 
today to try and keep up with what's going on. If you're a 
lieutenant in the missile fields--and there's a lot of you 
going to work together every day--and you look at the fact that 
the Air Force only has three missile wings and you see that as 
your potential wing command opportunity sometime in the future, 
that's about the highest level you really look as a lieutenant, 
and you say, my goodness, there's only three. There's no 
opportunity here.
    That's actually not the case, but that's the view when 
you're the operational----
    Senator Shelby. Well, sometimes the perception becomes 
reality, doesn't it?
    General Welsh. Oh, absolutely, Senator. That's what the 
Secretary is referring to. We have to deal with that. We have 
to ensure that there is opportunity for those officers, because 
they're immensely talented, and they're dedicated to this very 
tough mission.
    Senator Shelby. Picking up a little bit--and I appreciate 
Senator Durbin raising this. I know it's been a long hearing. 
But it seems to me that the nuclear deterrent is so important, 
it has to be so precise, that that would be an attraction for 
some of the best and the brightest and most ambitious and 
accountable in the Air Force to be there and want to be there, 
and, gosh, a place to be.
    Senator Durbin. It should be.
    General Welsh. Senator, I think every member of this 
committee probably has visited a missile wing. They are proud 
of it.
    Senator Shelby. Yes, I know it.
    General Welsh. They're proud of the way they do their job. 
Their performance is really exceptional day-to-day. It has to 
be. There is no other option.
    And I think our commitment is that we make sure we keep 
that motivation as they move up through the ranks and make sure 
they understand that the Air Force recognizes it.
    The Secretary, since the day he came into the job, has had 
the nuclear enterprise as his number one priority. It's been 
consistent. It's been strong. And I think our entire nuclear 
community recognizes that.
    Senator Shelby. Mr. Chairman, thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Thank you very much, Senator Shelby, 
Senator Cochran, Secretary Donley, and General Welsh, for your 
testimony. We'll be working with you and following up as we 
prepare the 2014 appropriation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Michael B. Donley
              Questions Submitted by Senator Mark L. Pryor
                overseas contingency operations funding
    Question. Has the Department of the Air Force identified all 
overseas contingency operations (OCO) funded activities which will need 
to migrate into the base budget?
    Answer. Yes, the Air Force has identified enduring activities as 
part of a Department of Defense study on overseas contingency 
operations funded activities.
    Question. What are some examples of programs or activities 
currently funded through OCO which will need to migrate into the base 
budget, and how do they support the Air Force's role within the Defense 
Strategic Guidance?
    Answer. Almost all of the Air Force's presence in the U.S. Central 
Command area of responsibility, including both Afghanistan and other 
countries in-theater, is funded with OCO. The Air Force's presence that 
will remain both in Afghanistan as well as other countries in-theater 
in support of the Defense Strategic Guidance will have to migrate into 
the base budget. Programs supporting the Air Force's presence in the 
U.S. Central Command area of responsibility include flying hours, 
weapon system sustainment, airlift/transportation, and base operating 
support functions.
    Question. Does migration of OCO-funded activities into the base 
budget cause reductions in other accounts as an off-set, or does 
migration add to the existing budget proposal levels?
    Answer. In this and past budget submissions, the Air Force has 
worked to accommodate activities formerly funded with OCO dollars into 
the base budget. We believe that guidance on shifting further OCO-
funded activities into the base budget will be provided by the Office 
of the Secretary of Defense at a later date.
                                 ______
                                 
           Questions Submitted to General Mark A. Welsh, III
               Question Submitted by Senator Patty Murray
                        fairchild air force base
    Question. Having represented Eastern Washington and Fairchild Air 
Force Base in the Senate for more than 20 years, I know that a unique 
combination of resources makes Fairchild one of our Nation's top 
military installations. In addition to its new 14,000 foot runway and 
$400 million in infrastructure investments, Fairchild has fostered a 
highly successful partnership between the Active Duty and National 
Guard Air Refueling Wings that has proven itself in both combat and in 
missions at home. Its strategic location ideally supports the 
Pentagon's rebalance to the Asia-Pacific region, and its integration 
with businesses and residents of Eastern Washington is unmatched.
    How much did you prioritize these factors, which are unique in the 
country, in reaching your decision?
    Answer. On April 20, 2012, the Secretary of the Air Force approved 
the weighted KC-46A basing criteria to determine an Air Force 
installation's ability to support the KC-46A.
    The Air Force's deliberate enterprise-wide look evaluated 54 
potential KC-46A candidate bases with a runway of at least 7,000 feet 
for the formal training unit and the first main operating base (MOB 1). 
Utilizing the Secretary-approved weighted criteria, the Air Force 
assessed and then identified those locations best suited to support the 
KC-46A mission.
    The Secretary's approved weighted criteria for MOB 1 evaluated:
      1. The ability of the installation to satisfy mission profiles 
        such as proximity to tanker events, fuel reception, storage and 
        distribution capability, and the potential to establish an 
        association (40 points);
      2. Capacity/availability of infrastructure (40 points);
      3. Environmental factors/concerns (10 points); and
      4. Construction and locality cost considerations (10 points).
    Fairchild received maximum points for its runway and installation 
capacity, as well as its ability to establish an association which 
leverages the valuable relationship between Fairchild's active duty, 
Air National Guard, and local communities. The strategic shift was not 
considered as the basing decision is intended to find the best long-
term location regardless of geopolitical situations which can change 
over time.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                               fort smith
    Question. Regarding the 120-person targeting unit scheduled for 
activation at Fort Smith, how many Airmen will remission from 188th 
current force structure to man this unit, and how many will be new 
arrivals?
    Answer. The potential exists for all the targeting positions to be 
filled by Airmen re-missioning from the A-10. However, it is likely 
that some members will choose to retire or separate rather than re-
missioning, others will be unable to obtain the required security 
clearance, and some may not qualify to attend training or complete 
training. Due to these variables, we are unable to predict the exact 
number of current Arkansas Air National Guard members who will 
remission to the targeting unit; however they will all have the 
opportunity to re-mission.
    Question. Regarding the 120-person targeting unit scheduled for 
activation at Fort Smith, when are new arrivals expected to report to 
Fort Smith for duty?
    Answer. The new authorized manpower requirements will be reflected 
on the Unit Manpower Document effective October 1, 2013. At this time, 
the unit can hire to its new mission. If the unit has individuals it 
desires to hire prior to this time, the National Guard Bureau will work 
to take care of the request.
    Question. Regarding the 120-person targeting unit scheduled for 
activation at Fort Smith, what are the new equipment requirements, and 
when can Fort Smith expect this equipment to start arriving?
    Answer. The Air Force remains committed to activating the Fort 
Smith targeting unit. Budget instability in fiscal year 2013 and into 
fiscal year 2014 complicated the Air Force's ability to program and 
budget for this unit's requirements. Operation and maintenance funding 
was provided in fiscal year 2013 and the military personnel funding is 
part of the fiscal year 2014 President's budget request.
    Procurement funding for the targeting unit is currently programmed 
in the fiscal year 15-19 future years defense plan. Based on the 
extension of the A-10 mission at Fort Smith, initial operational 
capability for the targeting unit has been pushed to the fourth quarter 
of fiscal year 2015. This provides the Air Force time to ensure the 
funding required for this unit is provided well before initial 
operational capability.
    In terms of equipment, the targeting unit requires mission-specific 
systems, such as point mensuration and weaponeering systems. The unit 
also requires operation and maintenance funding for common-user 
equipment that is not specific to the targeting mission, such as 
unclassified and classified computers and printers. Purchase and 
arrival of the common-user equipment depends on when fiscal year 2014 
operation and maintenance funding becomes available. If there is a 
lengthy continuing resolution, without new start authority, the Air 
Force risks not being able to obligate funding during fiscal year 2014.
    Question. Regarding the 120-person targeting unit scheduled for 
activation at Fort Smith, are there any new infrastructure requirements 
to support activation of this unit?
    Answer. The National Guard Bureau (NGB) and the Air National Guard 
(ANG) have already awarded a contract to complete the National 
Environmental Protection Act Environmental Impact Analysis Process 
(EIAP) of the many mission changes at Fort Smith, to include the 
targeting squadron. The installation staff is currently preparing to 
receive a NGB-ANG site survey team later this summer. This team will 
explore the options of utility improvements and facility construction 
and/or reuse of existing facilities. Their findings will be vetted 
through the NGB and the United States Air Force leadership for the 
development of the description of preferred and reasonable 
alternatives. The required EIAP efforts will be completed and proper 
project programming will result from the Air Force's repeatable, 
defendable, and transparent process. Specific project description at 
this time would be pre-decisional.
              crash and fire rescue services at fort smith
    Question. Despite your February 11, 2013, commitment to cover the 
unfunded requirement for Crash and Fire Rescue services at Fort Smith, 
the National Guard has informed me that funding for these services goes 
away with withdrawal of the A-10s. What actions have you taken to 
correct this and maintain the Crash and Fire Rescue services at Fort 
Smith?
    Answer. No decisions have been made at this point regarding the 
level of fire protection services required for Fort Smith once the A-
10s depart. Beginning in August 2013, the Air National Guard will 
initiate a site survey at Fort Smith to ensure the proper level of fire 
services is available for the remaining missions. The site survey will 
help determine the requirement for the remaining missions at Fort Smith 
to include the remotely piloted vehicles.
    Question. In your February 11, 2013, letter to me you indicated the 
potential to house RPAs at Fort Smith in the future. Should the Air 
Force follow through on housing RPAs at Fort Smith, a loss of the Crash 
and Fire Rescue services in conjunction with the withdrawal of A-10s 
would generate a future requirement to reestablish this program. Has a 
cost-benefit analysis been completed regarding this scenario?
    Answer. A cost benefit analysis has not been conducted. In August 
2013, the Air National Guard will perform a site survey at Fort Smith 
to ensure the proper level of fire services is available for the 
remaining missions there including the remotely piloted vehicles.
    Question. In order to convert the 188th from their A-10 mission to 
a RPA mission you indicated to me that the 188th would go through a 24-
36 month conversion program to reach Initial Operating Capability. Can 
you define what the Air Force determines Initial Operating Capability 
to be related to this RPA mission, and how much additional time is 
required to reach Full Operating Capability?
    Answer. For Air National Guard remotely piloted vehicles, a unit is 
considered initial operational capable when it has 15 mission crews 
trained and unit is equipped to conduct one combat air patrol steady 
state at/from home station.
    Full operational capability is reached when all 45 mission crews 
are trained and equipped to conduct up to three combat air patrols (one 
steady state, two surge/mobilization) and permanent facilities are 
complete.
    Time between initial operational capability and full operational 
capability is dependent on when military construction funding for 
facilities is received.
    Question. The departure of A-10s from Fort Smith will leave many 
facilities underutilized. Does the Air Force have a plan to utilize 
these facilities, either internally, or through some form of Public-
Private Partnership?
    Answer. On behalf of the Air Force, the National Guard Bureau and 
the Air National Guard, working with the base, are projected to conduct 
the first site surveys of the Fort Smith weapon system conversion later 
this summer. Should facility under-utilization result from the National 
Environmental Protection Act Environmental Impact Analysis Process and 
the Air Force project programming process, the Air Force would address 
the under-utilization by using one of three existing processes, all of 
which are repeatable, defendable, and transparent: (1) demolition (to 
include real estate and real property returns through lease 
modifications); (2) airport joint use agreement negotiations; or (3) 
the Air Force basing process. Public-private partnerships could fall 
into several of these arenas.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                  f-35: aircraft development progress
    Question. For a long time, the Joint Strike Fighter has been a 
program on paper, but we've not had the opportunity to hear or receive 
feedback from the test pilots and others who are directly involved in 
the testing and evaluation of this airplane. What feedback, if any, 
have you received from the young men and women who are test pilots for 
the F-35 aircraft at Eglin Air Force Base and Edwards Air Force base?
    Answer. We have received a lot of positive feedback from F-35 
pilots training at Eglin Air Force Base (AFB). F-35 pilots are 
impressed with the aircraft's capabilities and flying characteristics. 
According to one pilot, ``from a pure flying perspective, the F-35 is 
comparable to flying the F-16. It is very responsive to in-flight 
maneuvering and is even easier to land with superior breaking 
capability.'' Another pilot noted, ``The F-35A's aerodynamic 
performance is similar to an F-16 and F-18, however, its lethality and 
survivability in a high threat environment will far exceed that of 
legacy fighters.'' Additional comments include: ``the F-35 is easier to 
fly than the A-10 or F-15C that I've previously flown;'' and ``the F-35 
has been a great pleasure to fly; acceleration and climb rate are very 
impressive and it could not be easier to land.'' One final observation: 
``the jet is extremely easy to fly and very smooth/stable through mild 
maneuvering . . . the baseline jet is an easy transition from legacy 
fighters, is fun to fly, and provides great SA (situational awareness) 
to the pilot.''
    F-35A developmental flight testing at Edwards AFB is focused on 
providing Block 2B capability. Initial feedback from testing indicates 
that the F-35 will provide the Air Force with the required combat 
capability. The following test pilot quotes highlight pilot experiences 
with capabilities to be delivered at initial operational capability 
(IOC). ``As a new F-35 pilot I think that of the 30-plus aircraft I 
have flown, it is the easiest with respect to basic aircraft control. 
Flight path control in normal flight is easy, it stays where you put 
it.'' A second test pilot stated, ``While there are some limitations on 
MADL (multifunction advanced data link) performance in the SDD (system 
development and demonstration) fleet, the MADL network is easy to 
configure and works well.'' Furthermore, ``development of F-35 
countermeasures capabilities is progressing and is critical to (F-35) 
survivability. I just flew the first supersonic countermeasure mission 
and it went well.'' In conclusion, ``considering my experience in the 
program and now having actually flown the F-35, I can say I feel 
confident that we are progressing towards an aircraft that will provide 
the Commander, Air Combat Command, the combat capability he requires. 
I'm a Viper baby, but the F-35 is growing on me.''
                   international partners and allies
    Question. The F-35 was designed to be an international program from 
its inception. We have formal, binding agreements with our 
international partners that have been cemented over the past 12 years. 
Recently, Australia committed to buy up to 100 of these aircraft and 
continue to recognize the operational value of the F-35. What value 
does it bring to the F-35 program to have international partners 
involved in this program, and are they committed to the program?
    Answer. International partner involvement in the F-35 program 
enhances interoperability and cooperation among joint and coalition 
forces to meet the challenges of increasingly complex global security 
issues, ensuring we can fight ``shoulder-to-shoulder'' in future 
conflicts. Another valuable aspect of this unique international 
partnership is the ability to share the costs associated with the U.S. 
Department of Defense's largest acquisition program. Nine partner 
nations are singularly focused on fielding a common, top-of-the-line 
fifth generation fighter aircraft. This unprecedented level of 
cooperation ensures the United States, the United Kingdom, Australia, 
Italy, the Netherlands, Turkey, Canada, Denmark, and Norway can expand 
their air combat capabilities despite decreased defense budgets.
    The partners remain committed to the F-35 program and actively 
collaborate with the U.S. Government through the development, 
production, testing, training, and employment of a fighter aircraft 
sustained under a global logistics network. This commitment is 
reinforced by transparent discussions ranging from daily interaction at 
the Joint Strike Fighter's program office in Arlington, Virginia, 
through bi-annual meetings with senior national representatives 
(Service secretary-level) from each partner nation where the partners 
formally confirm their level of procurement.
                        f-35 stealth technology
    Question. Although there are many differences between the fourth 
generation aircraft and the F-35, which is a fifth generation aircraft, 
one of the primary features to me is the stealth technology that will 
be incorporated on the jet. To the extent that you can answer in an 
unclassified manner, would you describe whether there are threats in 10 
or 20 years that truly makes this capability necessary? Or is this a 
``nice to have'' capability?
    Answer. Countries like Russia and China continue to make tremendous 
leaps in the technology and capability within their own air forces. 
Fighters such as the SU-30 and SU-35 are equipped with improved 
targeting systems, cutting edge electronic jammers, and advanced air-
to-air weapons. These aircraft are on par to our own legacy fleet and 
are already deployed in significant numbers. These fighters are offered 
for sale worldwide to any potential adversary. The SU-35 was center 
stage at this year's Paris Air Show, marketed as the counter to 
America's air superiority advantage.
    Russia and China are also developing their own fifth generation 
fighters, such as the PAK-FA, J-20, and J-31. With improved aerodynamic 
performance, reduced radar cross sections (i.e., ``stealth''), 
sophisticated digital radar systems, and networked targeting solutions, 
these aircraft are designed to challenge our F-22 and F-35 for control 
of the skies.
    The F-35, however, will hold the advantage against these advanced 
fighter threats. Its fifth generation capabilities in stealth, 
electronic attack and protection, combined with a networked and sensor 
fused targeting solution, ensure our F-35s will ``see first, shoot 
first, kill first'' in any future air-to-air conflict. Details on these 
capability advantages are classified, but can be provided upon request.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The Defense Subcommittee is going to 
reconvene on Wednesday, May 15, in the morning at 10 for a 
classified hearing with the Director of National Intelligence. 
The subcommittee now stands in recess.
    [Whereupon, at 11:59 a.m., Wednesday, May 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
